APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS,
TENTH CIRCUIT
————
Nos. 17-7042,
17-7044
————
The CHEROKEE NATION,
Plaintiff-Appellee,
v.
DAVID BERNHARDT, in his official capacity as
Secretary of the Interior, U.S. Department
of the Interior; TARA KATUK MAC LEAN SWEENEY,
in her official capacity as Acting Assistant
Secretary for Indian Affairs, U.S. Department
of the Interior; EDDIE STREATER, in his official
capacity as Eastern Oklahoma Regional
Director, Bureau of Indian Affairs,
Defendants,
and
UNITED KEETOOWAH BAND OF CHEROKEE INDIANS
IN OKLAHOMA; UNITED KEETOOWAH BAND OF
CHEROKEEE INDIANS IN OKLAHOMA CORPORATION,
Intervenors Defendants-Appellants.
————

2a
THE CHEROKEE NATION,
Plaintiff-Appellee,
v.
DAVID BERNHARDT, in his official capacity as
Secretary of the Interior, U.S. Department
of the Interior; TARA KATUK MAC LEAN SWEENEY,
in her official capacity as Acting Assistant
Secretary for Indian Affairs, U.S. Department
of the Interior; EDDIE STREATER, in his official
capacity as Eastern Oklahoma Regional
Director, Bureau of Indian Affairs,
Defendants-Appellants,
and
UNITED KEETOOWAH BAND OF CHEROKEE INDIANS
IN OKLAHOMA; UNITED KEETOOWAH BAND OF
CHEROKEEE INDIANS IN OKLAHOMA CORPORATION,
Intervenors-Defendants.
————
Filed September 5, 2019
————
OPINION
EID, Circuit Judge.
Intervenor-Appellant the United Keetoowah Band
of Cherokee Indians in Oklahoma (UKB) is a federally
recognized Indian tribe located in eastern Oklahoma.
The UKB are descended from the historical Cherokee
Indian tribe. In 2000, the UKB purchased an undeveloped 76-acre parcel of land near Tahlequah, Oklahoma,
with the intention of developing it into a tribal and
cultural center (Subject Tract, or Subject Parcel). The

3a
Subject Parcel sits entirely within the boundaries of
the former reservation of Appellees the Cherokee
Nation of Oklahoma (Nation). In 2004, the UKB submitted an application to the Department of the Interior’s
Bureau of Indian Affairs (BIA), requesting the BIA
take the Subject Parcel into trust, thereby formally
establishing a UKB tribal land base. The Nation
opposed the application. After seven years of review,
the BIA approved the UKB’s application.
The Nation sued Department of the Interior and
BIA officials, with the UKB intervening as defendants,
challenging the BIA’s decision on several fronts. The
district court found in favor of the Nation, determining
that the BIA’s decision to take the Subject Parcel into
trust was “arbitrary and capricious, an abuse of discretion, and otherwise not in accordance with law.” Op. at
19. Among other holdings, the district court concluded
that: (1) the BIA must obtain Nation consent before
taking the Subject Parcel into trust; (2) the BIA’s analysis of two of its regulations as applied to the UKB
application was arbitrary and capricious; and (3) the
BIA must consider whether the UKB meets the Indian
Reorganization Act (IRA)’s definition of “Indian” in
light of the Supreme Court case Carcieri v. Salazar,
555 U.S. 379, 129 S.Ct. 1058, 172 L.Ed.2d 791 (2009).
Op. at 19. Accordingly, the district court enjoined the
Secretary of the Interior from accepting the Subject
Parcel into trust.
Because the district court’s order was a final decision, we have jurisdiction over this appeal, pursuant
to 28 U.S.C. § 1291.We hold that the Secretary of the
Interior has authority to take the Subject Parcel into
trust under section 3 of the Oklahoma Indian Welfare

4a
Act of 1936 (OIWA), 25 U.S.C. § 5203.1 The BIA was
therefore not required to consider whether the UKB
meets the IRA’s definition of “Indian.” Nor was the
BIA required to obtain the Nation’s consent before
taking the land into trust. We also hold that the BIA’s
application of its regulations was not arbitrary and
capricious. Accordingly, we reverse the district court
and vacate the injunction preventing the Secretary
from taking the Subject Parcel into trust.
I.
A.
The subject of this litigation is the UKB’s 2004 application to the BIA, Eastern Oklahoma Region (Region)
to acquire the Subject Tract into trust.2 The application’s road to eventual acceptance featured many twists
and turns, which we outline here. First, the Region
denied the application in April 2006. Aplt. App. 159.
The UKB appealed that decision to the Interior Board
of Indian Appeals (IBIA). On April 5, 2008 the Assistant Secretary for Indian Affairs (Assistant Secretary)
directed the Region to request a remand from the IBIA
to reconsider the application in light of findings made
1

This section was located at 25 U.S.C. § 503 during the BIA’s
consideration of the UKB Corporation’s application. For clarity’s
sake, all references will be to the statute’s current location.
2

Acquiring land into trust “is one of the most important
functions [the Department of the] Interior undertakes on behalf
of the tribes,” and “is essential to tribal self-determination.” U.S.
Department of the Interior, Indian Affairs, Fee To Trust, https://
www.bia.gov/bia/ots/fee-to-trust (last visited August 22, 2019).
The UKB intends to turn the Subject Parcel into a tribal land
base, and asserts that “it is essential for such a land base to be
held in trust so that tribal governmental and self-determination
activities can be guaranteed for future Keetoowah members.”
Aplt. App. 63 (UKB Land Into Trust Application).

5a
by the Assistant Secretary (2008 Directive). Aplt. App.
171. The Region requested the remand and the IBIA
complied, vacating the Region’s 2006 denial of the
application.
After reconsideration, the Region denied the application a second time on August 6, 2008. Aplt. App. 310.
Again, the UKB appealed the decision to the IBIA. At
this juncture, the Assistant Secretary assumed jurisdiction over the appeal pursuant to 25 C.F.R. § 2.20(c).
The Assistant Secretary issued three decisions, dated
June 24, 2009 (June 2009 Decision), July 30, 2009
(July 2009 Decision), and September 10, 2010 (2010
Decision), explaining why he found the Region’s reasoning to be flawed. Aplt. App. 214, 229, and 270. The
effect of the three decisions was to vacate the Region’s
denial of the application and remand to the Region for
reconsideration consistent with the Assistant Secretary’s findings.
In the 2010 Decision, the Assistant Secretary determined that the UKB should be allowed to amend its
application to invoke alternative authority for the
acquisition of the Subject Parcel into trust. Aplt. App.
272. Accordingly, the UKB amended its application to
request that the Subject Parcel be taken into trust:
(1) for the UKB Corporation, rather than the UKB
tribe; and (2) pursuant to section 3 of OIWA, 25 U.S.C.
§ 5203, rather than section 5 of the IRA, 25 U.S.C.
§ 5108.3 Aplt. App. 291. The Assistant Secretary sent
a letter dated January 21, 2011 to the UKB clarifying
additional matters pertaining to the application (2011
Letter). Aplt. App. 289.

3

This section was previously located at 25 U.S.C. § 465. Again,
we cite to the current location.

6a
B.
On May 21, 2011, the Region issued its decision
granting the UKB’s amended application (2011 Decision). Aplt. App. 291. The 2011 Decision incorporated
by reference the Assistant Secretary’s 2008 Directive,
June 2009 Decision, July 2009 Decision, 2010 Decision, and 2011 Letter. Aplt. App. 292. The BIA’s relevant findings were as follows.4
The BIA found that statutory and regulatory authority permitted the Secretary to take land into trust for
the UKB. 25 C.F.R. § 151.3(a) permits the Secretary to
take land into trust if the application satisfies one of
three listed criteria.5 The BIA determined that section

4

Some clarification of the agency relationships may be in
order before describing the 2011 Decision. The Regional offices
(in this case, the Eastern Oklahoma Region) conduct the initial
review and adjudication of land-into-trust applications in their
jurisdictions. When, as here, the Assistant Secretary assumes
jurisdiction over the appeal of the Region’s decision, the Assistant
Secretary is authorized to make findings that are binding on the
Region on remand. See 25 C.F.R. § 2.20(c). In the 2011 Decision,
the Region often expressed disagreement with the Assistant Secretary’s findings, while acknowledging that it was bound by those
findings. Therefore, we ascribe the holdings of the 2011 Decision
to the BIA as a whole, not the Region.
5

The regulation provides:
Land not held in trust or restricted status may only be
acquired for an individual Indian or a tribe in trust status
when such acquisition is authorized by an act of Congress.
No acquisition of land in trust status, including a transfer
of land already held in trust or restricted status, shall be
valid unless the acquisition is approved by the Secretary.
(a) Subject to the provisions contained in the acts of
Congress which authorize land acquisitions, land may be
acquired for a tribe in trust status:

7a
151.3(a)(2) applied because the UKB owned the Subject Tract in fee; and section 151.3(a)(3) applied
because the Assistant Secretary found that the UKB
had a need for the Subject Tract to be taken into trust
so that the UKB may exercise jurisdiction over it, thus
facilitating tribal self-determination. Aplt. App. 292.
Additionally, the BIA found that “Section 3 of the
OIWA . . . implicitly authorizes the Secretary to take
land into trust for the UKB Corporation.” Id. The BIA
found this implicit authority in the following language
of OIWA: “Such charter [of incorporation] may convey
to the incorporated group, in addition to any powers
which may properly be vested in a body corporate
under the laws of the State of Oklahoma, the right . . .
to enjoy any other rights or privileges secured to an
organized Indian tribe under the [IRA].” 25 U.S.C.
§ 5203 (emphasis added). Because section 5 of the IRA
authorizes the Secretary of the Interior to take land
into trust “for the purpose of providing land for Indians,”
25 U.S.C. § 5108, OIWA’s reference to the IRA implicitly grants the Secretary authority to take land into
trust for incorporated Oklahoma tribal groups (like
the UKB).
Next, the BIA determined that consultation with,
rather than the consent of, the Nation is required
before the Secretary may take land into trust for the
(1) When the property is located within the exterior
boundaries of the tribe’s reservation or adjacent thereto,
or within a tribal consolidation area; or
(2) When the tribe already owns an interest in the land;
or
(3) When the Secretary determines that the acquisition of
the land is necessary to facilitate tribal self-determination,
economic development, or Indian housing.
25 C.F.R. § 151.3.

8a
UKB Corporation. BIA regulations stipulate that an
Indian tribe “may acquire land in trust status on a
reservation other than its own only when the governing body of the tribe having jurisdiction over such reservation consents in writing to the acquisition . . . .”
25 C.F.R. § 151.8 (emphasis added). It is undisputed
that the Subject Tract is entirely within the former
reservation of the Nation. But the BIA concluded that
Congress overrode the consent requirement of section
151.8 with respect to lands within the boundaries of
the former Cherokee reservation when it passed the
Interior and Related Agencies Appropriations Act of
19996 (1999 Appropriations Act). The 1999 Appropriations Act provides: “until such time as legislation is
enacted to the contrary, no funds shall be used to take
land into trust within the boundaries of the original
Cherokee territory in Oklahoma without consultation
with the Cherokee Nation.” 112 Stat. 2681–246
(emphasis added). The BIA determined that the 1999
Appropriations Act replaced the consent requirement
with a consultation requirement in these circumstances, and the consultation requirement was satisfied when it solicited comments from the Nation in
2005 in connection with the UKB’s initial application.
Aplt. App. 293.
The BIA next evaluated whether the application satisfied the criteria established by 25 C.F.R. § 151.10.7
6

Omnibus Consolidated and Emergency Supplemental Appropriations Act, 1999, Pub. L. No. 105-277, 112 Stat. 2681 (1998).
7

The Secretary considers the following criteria when deciding
whether to take land into trust:
(a) The existence of statutory authority for the acquisition
and any limitations contained in such authority;
(b) The need of the individual Indian or the tribe for additional land;

9a
At issue in this appeal are the BIA’s findings regarding subsections (f) and (g). Subsection (f) concerns
whether jurisdictional problems may arise if the
application were granted. The Region concluded that
“it is clear that both the UKB and the [Nation] would
assert jurisdiction over the subject property if it were
taken in trust.” Aplt. App. at 297. The Region noted
that it had “twice previously concluded that the potential for jurisdictional problems between the Cherokee
Nation and the UKB is of utmost concern and weighed
heavily against approval of the acquisition.” Id. In
contrast, the Assistant Secretary had determined that:
(1) the Nation did not have exclusive jurisdiction over
the Subject Tract; (2) the UKB had a right to assert
jurisdiction over its tribal lands; and (3) that “the
perceived jurisdictional conflicts between the UKB
and the [Nation] are not so significant that I should
deny the UKB’s application.” Id. at 297–98. The
(c) The purposes for which the land will be used;
(d) If the land is to be acquired for an individual Indian, the
amount of trust or restricted land already owned by or for
that individual and the degree to which he needs assistance
in handling his affairs;
(e) If the land to be acquired is in unrestricted fee status,
the impact on the State and its political subdivisions resulting from the removal of the land from the tax rolls;
(f) Jurisdictional problems and potential conflicts of land
use which may arise;
(g) If the land to be acquired is in fee status, whether the
Bureau of Indian Affairs is equipped to discharge the additional responsibilities resulting from the acquisition of the
land in trust status.
25 C.F.R. § 151.10.
Subsection (h) requires the applicant to provide information
that allows the Secretary to comply with environmental standards. Id.

10a
Region remained concerned, but acknowledged that
the Assistant Secretary’s decisions were binding. Id.
at 298.
Subsection (g) concerns whether the BIA is equipped
to discharge additional responsibilities resulting from
a land-into-trust acquisition. The Region noted that
the Nation currently administers programs for the
Subject Parcel, such as real estate, tribal court, and
law enforcement services. Id. The Region was concerned that if the Subject Tract were placed into trust
for the UKB, the UKB would likely reject the authority
of the Nation and insist that the Region provide direct
services. Id. Despite the Region’s worries that it did
not have the funds necessary to provide those services,
the Assistant Secretary “rejected this concern as
unsubstantiated and insignificant.” Id. Again, the
Assistant Secretary’s findings were binding on the
Region.
Accordingly, the BIA approved the UKB’s land-intotrust application. Id. at 300. The Nation appealed the
2011 Decision to the IBIA, which dismissed the appeal
for lack of jurisdiction and on the grounds of abstention. Cherokee Nation v. Acting E. Okla. Reg’l Dir., 58
IBIA 153, 2014 WL 264820 (2014).
C.
The Nation sued the BIA in federal district court
challenging the 2011 Decision. The UKB and the UKB
Corporation intervened as defendants. The Nation
argued that the BIA could not acquire the Subject
Parcel under section 3 of OIWA and, even if it could,
the IRA’s definition of the term “Indian” excludes the
UKB. The Nation also contended that the BIA failed
to comply with the regulatory requirement that it
obtain Nation consent for the land-into-trust acquisi-

11a
tion. And the Nation argued that the BIA’s analysis of
the 25 C.F.R. § 151.10 regulatory criteria—specifically
the administrative-burden and jurisdictional-conflicts
criteria—was arbitrary and capricious. The Nation
asked for injunctive and declaratory relief.
In 2017, the district court entered a decision enjoining the BIA from acquiring the Subject Tract. The
court determined that the BIA may generally acquire
the Subject Parcel under Section 3 of OIWA, but the
BIA must consider how the Supreme Court’s decision
in Carcieri affects the BIA’s right to acquire the parcel
for the UKB in particular. Op. at 12, 14. In Carcieri,
the Supreme Court held that the phrase “now under
Federal jurisdiction” in the IRA’s definition of “Indian”
refers to “a tribe that was under federal jurisdiction at
the time of the statute’s enactment.” 555 U.S. at 382,
129 S.Ct. 1058. The Court reasoned that this definition “limits the Secretary’s authority to taking land
into trust for the purpose of providing land to members
of a tribe that was under federal jurisdiction when the
IRA was enacted in June 1934.” Id. The UKB achieved
federal recognition in 1946. See Act of August 10, 1946,
ch. 947, 60 Stat. 976. The Assistant Secretary believed
that Carcieri was not implicated in the 2011 Decision
because the UKB amended its application to request
land-into-trust pursuant to OIWA, not the IRA. Aplt.
App. at 272. The district court disagreed that Carcieri
was not implicated and held that before the BIA could
take any land into trust for the UKB, the BIA must
consider the IRA’s definition of “Indian” in light of
Carcieri. Op. at 19.
The district court also held that the Nation must
consent to the acquisition for two reasons: (1) an 1866
treaty between the United States and the Nation
guarantees protection for the Nation against “domes-

12a
tic feuds and insurrections” and “hostilities of other
tribes,”8 which could describe the current dispute with
the UKB; and (2) the 1999 Appropriations Act does
not override the regulatory consent requirement of
25 C.F.R. § 151.8. Op. at 16–17. And the court held
that the BIA’s analysis of jurisdictional conflicts and
the administrative burden under 25 C.F.R. § 151.10
was arbitrary and capricious. Id. at 18-19.
The court “remand[ed] this action to the Region.” Id.
at 19. It enjoined the BIA from taking the land into
trust without: (1) obtaining the Nation’s consent;
(2) reconsidering the section 151.10 criteria; and
(3) considering the effect of Carcieri on the acquisition.
Id. Department of Interior officials and the UKB
brought this appeal.
II.
As an initial matter, we must determine whether we
have jurisdiction over this appeal. See W. Energy
All. v. Salazar, 709 F.3d 1040, 1046 (10th Cir. 2013)
(“‘[J]urisdiction is a threshold question which an appellate court must resolve before addressing the merits of
the matter before it.’” (quoting Timpanogos Tribe v.
Conway, 286 F.3d 1195, 1201 (10th Cir. 2002))).
This court has jurisdiction “over all final decisions of
federal district courts under 28 U.S.C. § 1291.” Miami
Tribe of Oklahoma v. United States, 656 F.3d 1129,
1137 (10th Cir. 2011). But “it is well settled law that
the remand by a district court to an administrative
agency for further proceedings is ordinarily not
appealable because it is not a final decision.” W. Energy
All., 709 F.3d at 1047 (quotation and brackets omit8

Treaty with the Cherokees, art. 26, July 19, 1866, 14 Stat.
799, 803 (“1866 Treaty” or “Treaty”).

13a
ted). “This general principle has been called the
‘administrative-remand rule.’” Id. “In determining
whether the district court’s order was a final decision,”
this court considers “‘the nature of the agency action
as well as the nature of the district court’s order.’” Id.
(quoting New Mexico ex rel. Richardson v. BLM, 565
F.3d 683, 697 (10th Cir. 2009)). “Generally, to be final
and appealable, the district court’s judgment must end
the litigation and leave nothing to be done except
execute the judgment.” Bender v. Clark, 744 F.2d
1424, 1426 (10th Cir. 1984) (quotation and brackets
omitted). A district court’s order is more likely an
administrative remand when it “square[s] with the
traditional notion of a ‘remand,’ wherein the reviewing
court returns an action to a lower court for further
proceedings.” New Mexico, 565 F.3d at 698. “[A]
district court’s label for its own action carries little
weight in determining the nature of that action on
appeal[.]” Id. n.15.
The district court characterized its holding as a
remand to the agency. It held:
[T]he court finds in favor of the Cherokee Nation
and remands this action to the Region. Furthermore, in accordance with the court’s findings herein,
the Secretary is enjoined from taking the Subject
Tract into trust without the Cherokee Nation’s
written consent and full consideration of the jurisdictional conflicts and the resulting administrative burdens the acquisition would place on the
Region. Before taking any land into trust for the
UKB or the UKB Corporation, the Region shall
consider the effect of Carcieri on such acquisition.
Op. at 19 (italics and underlining in original). The language of the court’s order appears to call for an administrative remand because it instructs the Secretary to

14a
reconsider the application in light of its holdings regarding Nation consent, the section 151.10 factors, and the
applicability of Carcieri.
Viewing the district court’s order “practically rather
than technically,” Bender, 744 F.2d at 1427, though,
we conclude that the order was final, and therefore
appealable. The district court’s injunction preventing
the Secretary from taking the Subject Parcel into trust
without the Nation’s consent essentially ends the
proceedings in this case. No further action can be
taken on the UKB’s application without Nation consent, and the Nation has steadfastly withheld that
consent throughout the fourteen years of the application’s pendency. Accordingly, the district court’s judgment “end[ed] the litigation” and “leave[s] nothing to
be done except execute the judgment.” Id. at 1426.
Moreover, “the nature of the district court’s order . . .
does not square with the traditional notion of a
‘remand,’ wherein the reviewing court returns an
action to a lower court for further proceedings.” New
Mexico, 565 F.3d at 698. In New Mexico, the district
court enjoined the Bureau of Land Management from
approving development leases without conducting
more stringent environmental analyses. Id. We noted
that “[t]he [district] court’s order did not require BLM
to recommence a proceeding, or indeed to take any
action at all—it simply enjoined BLM from further
[environmental] violations.” Id. Similarly, the other
holdings by the district court—that the BIA’s analysis
of the section 151.10 factors was arbitrary, and that its
consideration of Carcieri was insufficient—do not
mandate further proceedings. Because the UKB’s
application will not move forward until Nation consent
is granted, there will be no occasion for the BIA to

15a
reconsider the application in light of the court’s holdings.
Accordingly, we conclude that the district court’s
order was not an administrative remand, but rather a
final order that we have jurisdiction to review under
section 1291.9
III.
In reaching its decision, the district court interpreted federal statutes—the IRA, the OIWA, and the
1999 Appropriations Act—and the 1866 Treaty. This
court reviews those interpretations de novo. Par. Oil
Co. v. Dillon Cos., Inc., 523 F.3d 1244, 1248 (10th Cir.
2008) (statutes); O Centro Espirita Beneficiente Uniao
Do Vegetal v. Ashcroft, 389 F.3d 973, 988 (10th Cir.
2004) (treaties).
Agency action shall be set aside if the action was
“arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.” Citizens to Preserve
Overton Park, Inc. v. Volpe, 401 U.S. 402, 414, 91 S.Ct.
814, 28 L.Ed.2d 136 (1971) (quotation omitted). An
action is arbitrary and capricious if
the agency (1) entirely failed to consider an
important aspect of the problem, (2) offered an
explanation for its decision that runs counter to
the evidence before the agency, or is so implausible that it could not be ascribed to a difference in
view or the product of agency expertise, (3) failed
9

Incidentally, we note that, while we cannot assume jurisdiction over a case simply because the parties consent to it, see Am.
Fire & Cas. Co. v. Finn, 341 U.S. 6, 17, 71 S.Ct. 534, 95 L.Ed. 702
(1951), counsel for the Nation agreed at oral argument that the
district court’s order was a final decision. See Oral Argument at
27:46.

16a
to base its decision on consideration of the relevant factors, or (4) made a clear error of judgment.
Hillsdale Envtl. Loss Prevention, Inc. v. U.S. Army
Corps of Engineers, 702 F.3d 1156, 1165 (10th Cir.
2012) (quoting New Mexico, 565 F.3d at 704).
This court will “uphold the agency’s action if it has
articulated a rational basis for the decision and has
considered relevant factors.” Wolfe v. Barnhart, 446
F.3d 1096, 1100 (10th Cir. 2006) (quotation omitted).
IV.
A.
Our analysis starts with the district court’s holding
that the BIA inadequately considered the effects of
Carcieri when it authorized taking land into trust for
the UKB Corporation.
Land may only be taken into trust for an Indian
tribe when the acquisition is authorized by an act of
Congress. 25 C.F.R. § 151.3. The UKB’s 2004 application pointed to section 5 of the IRA as providing such
Congressional authority.10 Aplt. App. 65. In 2009,

10

Section 5 of the IRA provides:
The Secretary of the Interior is authorized, in his discretion,
to acquire, through purchase, relinquishment, gift, exchange,
or assignment, any interest in lands, water rights, or surface
rights to lands, within or without existing reservations,
including trust or otherwise restricted allotments, whether
the allottee be living or deceased, for the purpose of providing land for Indians.
...
Title to any lands or rights acquired pursuant to this
Act . . . shall be taken in the name of the United States in
trust for the Indian tribe or individual Indian for which the

17a
however, the Supreme Court issued Carcieri, which
construed section 5129 of the IRA.11 Section 5129 provides the following definition of “Indian”:
The term “Indian” as used in this Act shall include
all persons of Indian descent who are members of
any recognized Indian tribe now under Federal
jurisdiction, and all persons who are descendants
of such members who were, on June 1, 1934,
residing within the present boundaries of any
Indian reservation, and shall further include all
other persons of one-half or more Indian blood.
25 U.S.C. § 5129. The Supreme Court held that “the
term ‘now under Federal jurisdiction’ in § [5129] unambiguously refers to those tribes that were under the
federal jurisdiction of the United States when the IRA
was enacted in 1934.” Carcieri, 555 U.S. at 395, 129
S.Ct. 1058. The UKB was not federally recognized
until 1946.
The Assistant Secretary grappled with the implications of Carcieri in his June 2009, July 2009, and July
2010 decisions. Aplt. App. 215, 229, 270. The Assistant
Secretary ultimately concluded that the UKB should
be allowed to amend its application to invoke different
statutory authority: section 3 of OIWA.12 Aplt. App.
land is acquired, and such lands or rights shall be exempt
from State and local taxation. 25 U.S.C. § 5108.
11

At the time Carcieri was decided, this provision was codified
at 25 U.S.C. § 479.
12

Section 3 of OIWA provides:
Any recognized tribe or band of Indians residing in Oklahoma
shall have the right to organize for its common welfare and
to adopt a constitution and bylaws, under such rules and
regulations as the Secretary of the Interior may prescribe.
The Secretary of the Interior may issue to any such orga-

18a
270. Section 3 of OIWA provides that a properly chartered Oklahoma Indian group “enjoy[s] any other
rights or privileges secured to an organized Indian
tribe under the [IRA.]” 25 U.S.C. § 5203. Because one
of the rights or privileges in the IRA is to have land
taken into trust, the Assistant Secretary reasoned,
OIWA extends that right to properly incorporated
Oklahoma Indian groups, like the UKB. Accordingly,
the Assistant Secretary was satisfied that, by allowing
the UKB to amend the application to invoke OIWA
and not the IRA, the Carcieri holding did not apply.13
The district court agreed that using OIWA and the
IRA in tandem provided authority for land-into-trust
acquisitions for Oklahoma Indian corporations. Op. at
12. But it disagreed that this statutory formulation
rendered the definition of “Indian” in the IRA inapplicable. The court reasoned that “[t]o allow a corporation formed under the OIWA to enjoy a portion of the
IRA’s provisions without regard to its other provisions
and definitions would be to provide it more rights and
privileges than the IRA provides.” Id. The district
nized group a charter of incorporation, which shall become
operative when ratified by a majority vote of the adult
members of the organization voting: Provided, however,
That such election shall be void unless the total vote cast be
at least 30 per centum of those entitled to vote. Such charter
may convey to the incorporated group, in addition to any
powers which may properly be vested in a body corporate
under the laws of the State of Oklahoma, the right to participate in the revolving credit fund and to enjoy any other
rights or privileges secured to an organized Indian tribe
under the [Indian Reorganization] Act of June 18, 1934 (48
Stat. 984)[.]
25 U.S.C. § 5203 (emphasis in original).
13

The UKB also amended the application to take the Subject
Tract into trust for the UKB Corporation, not the UKB tribe.

19a
court therefore concluded that the UKB Corporation
must still satisfy the IRA’s definition of “Indian,” as
construed by the Supreme Court in Carcieri. Id. at 13.
Accordingly, the court enjoined the acquisition until
the BIA “reach[es] the question of how any acquisition
for the UKB or the UKB Corporation is affected by
Carcieri.” Id. at 14.
Appellants do not argue on appeal that the UKB
Corporation meets the definition of “Indian” under the
IRA; rather, they assert that the IRA’s definition does
not apply under these circumstances. We agree.
As the Supreme Court noted in Carcieri, Congress
may choose “to expand the Secretary’s authority to
particular Indian tribes not necessarily encompassed
within the definitions of ‘Indian’ set forth in § [5129].”
Carcieri, 555 U.S. at 392, 129 S.Ct. 1058 (footnote
omitted). That is precisely what Congress did when it
enacted OIWA. By its terms, OIWA extends to
properly incorporated Oklahoma Indian groups “the
right . . . to enjoy any other rights or privileges secured
to an organized Indian tribe under the [IRA].” 25
U.S.C. § 5203. OIWA contemplated that “recognized
tribe[s] or band[s] of Indians residing in Oklahoma”
would take advantage of the right to incorporate and
therefore have access to the “rights or privileges” provided by the IRA. Id. It would be strange for Congress
to purport to extend the benefits of the IRA to new
groups only to have that extension immediately nullified if the group does not satisfy the IRA’s definition of
“Indian.” We therefore conclude that section 3 of
OIWA was not meant to be constrained by the definition of “Indian” in the IRA.
Accordingly, it was not necessary for the BIA to
consider whether the UKB Corporation met the IRA’s
definition of “Indian,” and the Carcieri ruling was not

20a
implicated. We reverse the district court’s contrary
holding. Because it is undisputed that the UKB is
a “recognized tribe or band of Indians residing in
Oklahoma,” id., that has incorporated pursuant to
OIWA, see Aplt. App. 79, the BIA properly concluded
that statutory authority exists for the Secretary to
take the Subject Parcel into trust for the UKB Corporation.
B.
We turn now to the district court’s holding that
Nation consent is required before the BIA may take
the Subject Parcel into trust for the UKB. The court
found two independent bases for the consent requirement: BIA regulations and the 1866 Treaty. We conclude that neither the regulations nor the 1866 Treaty
applies in these circumstances, and therefore reverse.
1.
BIA regulations provide: “An individual Indian or
tribe may acquire land in trust status on a reservation
other than its own only when the governing body of the
tribe having jurisdiction over such reservation consents
in writing to the acquisition[.]” 25 C.F.R. § 151.8.
Because the Subject Tract is entirely within the former Nation reservation, section 151.8 seemingly mandates Nation consent before the UKB application may
be granted. Congress also weighed in on the issue,
including the following proviso in the “Interior and
Related Agencies Appropriations Act of 1992”14 (1992
Appropriations Act): “until such time as legislation is
enacted to the contrary . . . [no] funds [shall] be used
to take land into trust within the boundaries of the
14

Department of the Interior and Related Agencies Appropriations Act, 1992, Pub. L. No. 102-154, 105 Stat. 990 (1991).

21a
original Cherokee territory in Oklahoma without the
consent of the Cherokee Nation.” 105 Stat. 990 (emphasis added).
But the BIA concluded that Congress overrode the
1992 Appropriations Act and section 151.8 when Congress passed the 1999 Appropriations Act. Aplt. App.
293. The Act provides:
[T]he sixth proviso under [the 1992 Appropriations Act] is hereby amended to read as follows:
“Provided further, That until such time as legislation is enacted to the contrary, no funds shall be
used to take land into trust within the boundaries
of the original Cherokee territory in Oklahoma
without consultation with the Cherokee Nation.”
112 Stat. 2681–246 (second italics added).
Because the only substantive change to the proviso
was to change the word “consent” to “consultation,” the
BIA construed the 1999 Appropriations Act proviso as
replacing the “consent requirement” with a “consultation requirement.”15
The district court held that while the 1999 Appropriations Act may have amended the 1992 Appropriations Act, it did not abrogate the consent requirement
of section 151.8. The court concluded that the Act
applies only to funding land-into-trust acquisition
(noting the “no funds shall be used” language), while
not overriding section 151.8, which applies to the general process of land-into-trust acquisitions (regardless
of funding source). Op. at 16. The district court found
further support for its position in the fact that Con15

The BIA determined that it satisfied the consultation requirement when it solicited comments from the Nation in connection
with the UKB’s initial application. Aplt. App. 293.

22a
gress “revisited” the BIA regulations in 2001 (i.e. after
the 1999 Appropriations Act) and did not alter the
consent requirement. Id.
We interpret the 1999 Appropriations Act as overriding the consent requirement of section 151.8 with
respect to lands within the original Cherokee territory
in Oklahoma. The 1999 Appropriations Act provides
explicitly that it amends the 1992 Appropriations Act,
see 112 Stat. 2681–246, and the substance of the
amendment is to require Nation consultation, instead
of consent, when using funds to take lands into trust
within the boundaries of the original Cherokee
territory in Oklahoma. Id. While the 1999 Appropriations Act does not specifically state that it overrides
section 151.8, when a statute and a regulation are in
conflict, the statute “renders the regulation which is in
conflict with it void and unenforceable.”16 Enfield v.
Kleppe, 566 F.2d 1139, 1142 (10th Cir. 1977).

16

The Nation argues that “[c]ourts will not construe an appropriations act to amend substantive law unless it is clear that
Congress intended to change the substantive law.” Aple. Br. at 35
(citing United States v. Will, 449 U.S. 200, 221, 101 S.Ct. 471, 66
L.Ed.2d 392 (1980)). Although appropriations acts “have the
limited and specific purpose of providing funds for authorized
programs,” “both substantive enactments and appropriations
measures are ‘Acts of Congress[.]’” Tennessee Valley Authority v.
Hill, 437 U.S. 153, 190, 98 S.Ct. 2279, 57 L.Ed.2d 117 (1978). We
have recognized that “if Congress so intends, it can amend the
provisions of a statute through the use of an appropriations act.”
United States v. Burton, 888 F.2d 682, 685 (10th Cir. 1989); see
also Will, 449 U.S. at 222, 101 S.Ct. 471 (“[W]hen Congress
desires to suspend or repeal a statute in force, there can be no
doubt that it could accomplish its purpose by an amendment to
an appropriations bill, or otherwise.” (quotation marks, brackets,
and ellipsis omitted)). “The whole question depends on the intention of Congress as expressed in the statutes.” Will, 449 U.S. at

23a
Nor do we share the district court’s concern that the
1999 Appropriations Act amounts to a “repeal by
implication,” a generally disfavored practice. See Watt
v. Alaska, 451 U.S. 259, 267, 101 S.Ct. 1673, 68
L.Ed.2d 80 (1981) (“The intention of the legislature to
repeal must be clear and manifest.”). Rather, the 1999
Appropriations Act carves out an exception to section
151.8. Section 151.8 deals with trust acquisitions in
general; the 1999 Appropriations Act singles out land
located on the original Cherokee territory in Oklahoma.
Accordingly, there is not an “irreconcilable conflict”
between the enactments; “the more recent and specific
statute will be determined to modify or super[s]ede an
earlier, more general statute only to the extent necessary to avoid the irreconcilable conflict or inconsistency.”
Oldenkamp v. United Am. Ins. Co., 619 F.3d 1243,
1247 (10th Cir. 2010) (quoting Duncan v. Oklahoma
Dept. of Corr., 95 P.3d 1076, 1079 (Okla. 2004)).17

222, 101 S.Ct. 471 (quoting United States v. Mitchell, 109 U.S.
146, 150, 3 S.Ct. 151, 27 L.Ed. 887 (1883)).
In this case, Congress’s intent to modify the law is clear. As
noted above, the 1999 Appropriations Act explicitly provides that
it amends the 1992 Appropriations Act. 112 Stat. 2681–246. The
1999 Act replaced the consent requirement contained in the 1992
Act with a consultation requirement when taking lands into
trust within the boundaries of the original Cherokee territory in
Oklahoma. Congress clearly intended the 1999 Appropriations
Act to enact a substantive change in the requirements for taking
lands within the original boundaries of the Cherokee territory
into trust.
17

The 1999 Appropriations Act’s specificity perhaps also
explains why Congress chose not to alter section 151.8 when it
“revisited” the regulations in 2001. See Op. at 15–16. Congress
was not purporting to alter section 151.8 generally; it was merely
codifying a narrow exception to the general rule.

24a
We are also unconvinced by the district court’s reasoning that the 1999 Appropriations Act is confined
only to funding, and not land-into-trust acquisitions in
general. There is no practical difference between
“acquir[ing] land in trust” (section 151.8’s language)
and “us[ing funds] to take land into trust” (the Act’s
language). The operative action is taking lands into
trust. All land-into-trust acquisitions require the
expenditure of BIA funds, regardless of whether the
BIA purchases the land or, as here, acquires the land
from a tribe that already owns it in fee.
The Nation argues that the 1999 Appropriations Act
is not tribe-specific to the UKB, and overriding the
consent requirement would “open [the Nation’s
territory] to every other Tribe in the United States.”
Aple. Br. at 33. The Nation asserts that Congress
could not have intended such an absurd result. We
think these concerns unfounded. As this case has
demonstrated, the application process for taking land
into trust is exacting. The BIA must still consider
other regulatory criteria, like the “existence of statutory authority for the acquisition and any limitations
contained in such authority,” the tribe’s “need . . . for
additional land,” the “purposes for which the land will
be used,” and “[j]urisdictional problems and potential
conflicts of land use which may arise.” 25 C.F.R.
§ 151.10 et seq. A tribe seeking trust lands on Nation
territory must convince the BIA that it satisfies the
regulatory criteria. And federal court review is
available should the BIA abuse its discretion.
For these reasons, we conclude that the 1999 Appropriations Act overrides the consent requirement of
section 151.8.

25a
2.
Apart from the BIA regulations, the district court
found a consent requirement in the 1866 Treaty as
well. Article 26 of the Treaty provides: “The United
States guarantee to the people of the Cherokee Nation
the quiet and peaceable possession of their country
and protection against domestic feuds and insurrections, and against hostilities of other tribes.” 1866
Treaty, art. 26, July 19, 1866, 14 Stat. 799, 803. The
district court concluded that
[t]he members of the UKB are also Cherokee;
thus, this could be considered a ‘domestic feud or
insurrection.’ The UKB is also an independent
tribe; thus, this could be considered ‘hostility of
another tribe,’ as the UKB has announced its
intention to assert exclusive jurisdiction over the
Subject Tract. In either event, the 1866 Treaty
guaranteed the Cherokee Nation protection against
it.
Op. at 17.
The court determined that even if it was wrong
about the 1999 Appropriations Act overriding section
151.8, Congress did not intend to override the Treaty,
and Nation consent was still required. Id.
The district court’s analysis was sparse. In fact, it
did not render a true ruling, noting only that the
UKB’s application “could be considered a ‘domestic
feud or insurrection,’” or “could be considered ‘hostility
of another tribe[.]’” Id. (emphasis added). We do not
read the Treaty’s terms as prohibiting the UKB’s
application without Nation consent.
When analyzing the meaning of a treaty’s language,
courts “look beyond the written words to the larger

26a
context that frames the [t]reaty, including ‘the history
of the treaty, the negotiations, and the practical construction adopted by the parties.’” Minnesota v. Mille
Lacs Band of Chippewa Indians, 526 U.S. 172, 196,
119 S.Ct. 1187, 143 L.Ed.2d 270 (1999) (quoting
Choctaw Nation v. United States, 318 U.S. 423, 432,
63 S.Ct. 672, 87 L.Ed. 877 (1943)). But “[t]reaty analysis begins with the text.” Herrera v. Wyoming, –––
U.S.––––, 139 S. Ct. 1686, 1701, 203 L.Ed.2d 846
(2019). “[C]ourts cannot ignore plain language that,
viewed in historical context and given a ‘fair
appraisal,’ clearly runs counter to a tribe’s later
claims.” Oregon Dep’t of Fish & Wildlife v. Klamath
Indian Tribe, 473 U.S. 753, 774, 105 S.Ct. 3420, 87
L.Ed.2d 542 (1985) (quoting Washington v. Washington
Commercial Passenger Fishing Vessel Ass’n, 443 U.S.
658, 675, 99 S.Ct. 3055, 61 L.Ed.2d 823 (1979))
(citation omitted). Treaties are “construed, not according to the technical meaning of [their] words to learned
lawyers, but in the sense in which they would naturally be understood by the Indians.” Washington, 443
U.S. at 676, 99 S.Ct. 3055.
The “plain language” of article 26 of the 1866 Treaty
does not support the Nation’s claim that it may veto
the UKB’s land-into-trust application. See Klamath
Indian Tribe, 473 U.S. at 774, 105 S.Ct. 3420. We note
that the Nation seems to reject the district court’s
finding that the UKB’s application “could be considered a ‘domestic feud or insurrection.’” Op. at 17. The
Nation asserts that “[t]he UKB is another tribe” and
argues solely that the application constitutes a “hostility of another tribe.” Aple. Br. at 42–43. We agree that
the “domestic feud or insurrection” clause does not
apply. “Domestic” was understood in the 1860s to
mean “of, or pertaining to, one’s country; not foreign[.]”
Worcester’s Dictionary 436 (1860). A “feud” meant at

27a
the time of the Treaty’s signing a “quarrel; a contention; . . . particularly a deadly quarrel between families
or clans, or a quarrel not to be satisfied but with
blood.” Id. at 550. We doubt that the current litigation
between the Nation and the UKB constitutes a “feud”
within the meaning of article 26 because this dispute
is not a “deadly quarrel” to be satisfied only “with
blood.” Regardless, because the UKB achieved federal
recognition as a separate tribe from the Cherokee
Nation in 1946, see 60 Stat. 976, any feud between the
UKB and the Nation would not be “domestic.”18
The “hostilities of other tribes” clause does not pertain to the UKB application either. “Hostility,” in
1860s usage, meant “the practice of an open enemy;
opposition in war; war; warfare.” Worcester’s Dictionary
697; see also Burrill’s Law Dictionary 31 (1867) (defining “hostility” as “[a] state of open war . . . . An act of
open war.”). The context of the “hostilities” clause
confirms that the treaty contemplated warlike hostilities, not mere civil disagreements. Under the Treaty,
the United States promised the Nation “quiet and
peaceable possession of their country and protection
against domestic feuds and insurrections, and against
hostilities of other tribes.” 1866 Treaty, art. 26, July
19, 1866, 14 Stat. 799, 803. Placing “hostilities” in a
group with other words suggesting violent conflict—
“feuds” and “insurrections”—and contrasting those
events to “peaceable possession” demonstrates that
the Treaty would have been understood to protect the
Nation from warlike aggression.

18

Nor can the UKB’s application be categorized as an “insurrection,” which was defined as “[a] seditious rising against government; a rebellion; a revolt; a sedition.” Worcester’s Dictionary
764.

28a
While the relationship of the UKB and the Nation
does not appear friendly, they are neither open enemies nor engaged in warfare. The Nation asserts that
the relationship is “hostile” because the UKB has “separated from the Nation, prohibits its members from
also maintaining citizenship in the Nation, and seeks
to usurp the territorial jurisdiction of the government
of the Nation[.]” Aple. Br. at 42. We disagree with the
Nation’s argument that the UKB establishing a
separate identity, an action which was ratified by act
of Congress, constitutes hostility. Neither does maintaining strict membership standards. In any event,
those actions precede and are unrelated to the controversy at issue; that is, the UKB’s application for the
BIA to take land into trust. And while there may be
jurisdictional disputes resulting from taking the land
into trust, see infra, those potential conflicts would be
of an administrative character. In short, no “hostilities,” as contemplated in the 1866 Treaty, attach to the
UKB’s land-into-trust application.
The 1866 Treaty does not grant the Nation the
power to veto the UKB’s land-into-trust application.
And, as regards land on the original Cherokee territory
in Oklahoma, Congress overrode the consent requirement of section 151.8 when it passed the 1999 Appropriations Act. Accordingly, Nation consent is not
required for the BIA to take the Subject Parcel into
trust for the UKB.
C.
Finally, we review the district court’s ruling that the
BIA abused its discretion when it considered the regulatory criteria for land-into-trust acquisitions. BIA
regulations provide that the agency will “consider”
several “criteria in evaluating requests for the acquisition of land in trust status.” 25 C.F.R. § 151.10.

29a
Specifically, the district court held that the BIA’s
analysis of two of the criteria—“jurisdictional problems and potential conflicts of land use which may
arise,” and whether the BIA is “equipped to discharge
the additional responsibilities resulting from the acquisition of the land in trust status,” id. at (f) and (g)—
was arbitrary and capricious. Op. at 18–19. We conclude that the BIA’s analysis of the regulatory criteria
was adequate, so we reverse the district court.
We review the BIA’s consideration of the regulatory
factors “to determine whether the agency acted in a
manner that was ‘arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with law.’”
McAlpine v. United States, 112 F.3d 1429, 1436 (10th
Cir. 1997) (citing 5 U.S.C. § 706(2)(A)). “The critical
question in answering this inquiry is ‘whether the
decision was based on a consideration of the relevant
factors and whether there has been a clear error of
judgment.’” Id. (quoting Overton Park, 401 U.S. at 416,
91 S.Ct. 814). “Although this inquiry into the facts is
to be searching and careful, the ultimate standard of
review is a narrow one. The court is not empowered to
substitute its judgment for that of the agency.” Id. This
court’s “task is to assess whether the agency considered all of the relevant factors contained at 25 C.F.R.
§ 151.10 in evaluating” the BIA’s consideration of a
land-into-trust application. Id.
1.
We start with the district court’s holding that the
BIA’s consideration of the jurisdictional-conflicts criterion, 25 C.F.R. § 151.10(f), was arbitrary and capricious. The court noted the disagreements between
the Region and the Assistant Secretary about the significance of potential jurisdictional conflicts. The Region
twice denied the UKB application—in 2006 and 2008—

30a
in large part because it was convinced that both the
Nation and the UKB would assert jurisdiction over the
Subject Parcel if it were taken into trust. See Aplt.
App. 162–63; 314–17. In his June 2009 Decision, the
Assistant Secretary responded to the Region’s concerns by finding that (1) the UKB would exercise
exclusive jurisdiction over the Subject Parcel, and
(2) even if both the Nation and the UKB asserted
jurisdiction, shared-jurisdiction trust lands have been
approved in the past. Id. at 219–21. The Region
reiterated in the 2011 Decision that its concerns were
not assuaged, but it acknowledged that the Assistant
Secretary’s findings were binding on it, preventing it
from denying the application on jurisdictional grounds.
Id. at 296–98.
The district court credited the Region’s arguments
while giving short shrift to those of the Assistant
Secretary. We note the intra-agency difference of opinion, but our task is not to decide which side has the
better argument. Instead, we must review the agency’s
ultimate disposition of the issue (in this case, the
Assistant Secretary’s findings that jurisdictional problems are not insurmountable) for an abuse of discretion. See Overton Park, 401 U.S. at 416, 91 S.Ct. 814
(reviewing courts must discern “whether the decision
was based on a consideration of the relevant factors
and whether there has been a clear error of judgment.”
(emphasis added)). We conclude that the BIA “consider[ed] . . . the relevant factors” and did not make a
“clear error of judgment” in its jurisdictional-conflicts
analysis. Id.
The Assistant Secretary explained his reasoning in
the June 2009 Decision, which was incorporated by
reference into the 2011 Decision. First, the Assistant
Secretary responded to the Region’s finding that the

31a
Nation possessed exclusive jurisdiction over the
former historic Cherokee reservation. The Assistant
Secretary pointed to the 1946 Congressional Act
recognizing the UKB “as a band of Indians residing in
Oklahoma within the meaning of section 3 of the
[OIWA].” See 60 Stat. 976 (1946 Act). The Assistant
Secretary reasoned that the 1946 Act “imposes no
limitations on the [UKB]’s authority,” and “[t]here is
no reason, on the face of the Act, that the Keetoowah
Band would have less authority than any other band
or tribe.” Aplt. App. 219. To further support this
conclusion, the Assistant Secretary referenced section
476(f),19 an amendment to the IRA enacted in 1994,
which provides that the government shall not
“classif[y], enhance[ ], or diminish[ ] the privileges and
immunities available to [an] Indian tribe relative to
other federally recognized tribes[.]” Id. (quoting 25
U.S.C. § 5123(f) (IRA Amendment)). The Assistant
Secretary reasoned that this provision prohibited the
BIA from finding the UKB lacks territorial jurisdiction
while other tribes possess it, and justified a departure
from BIA precedent holding that the Nation exercised
exclusive jurisdiction within the former Cherokee
reservation.20 Id. And the Assistant Secretary cited the
19
20

Now located at 25 U.S.C. § 5123(f).

The precedents the Region cited consist of unpublished orders
from the Northern District of Oklahoma. See United Keetoowah
Band v. Secretary, No. 90-C-608-B (N.D. Okla. Order May 31,
1991) (“[T]he Secretary of the Interior, or his designee, has
determined that the subject lands of the old Cherokee Reservation are under the jurisdiction of the new Cherokee Nation, not
the UKB.”); Buzzard v. Oklahoma Tax Commission, No. 90-C848-B (N.D. Okla. Order Feb. 24, 1992); United Keetoowah Band
v. Mankiller, No. 92-C-585-B (N.D. Okla. Order Jan. 27, 1993)
(“This court has previously decided that the Cherokee Nation is
the only tribal entity with jurisdictional authority in Indian
Country within the Cherokee Nation.” (citing UKB v. Secretary).

32a
1999 Appropriations Act, discussed supra, as further
indication of Congressional intent that trust lands
may be established on the former Cherokee reservation for tribes other than the Nation. Id. at 220.
Second, the Assistant Secretary concluded that
“even if the UKB had to share jurisdiction with the
[Nation], such shared jurisdiction would not preclude
me from taking the land into trust.” Id. The Assistant
Secretary then referenced other instances of tribes
sharing jurisdiction over trust lands. Id. at 220–221.
“The UKB and the [Nation] should be able, as these
other tribes have done, to find a workable solution to
shared jurisdiction.” Id. at 221.
We find the Assistant Secretary’s analysis sufficient
to withstand the “narrow” standard of arbitrary and
capricious review. McAlpine, 112 F.3d at 1436. The
Assistant Secretary was justified in relying on the
1994 IRA Amendment and the 1999 Appropriations
Act as bases for changing the BIA’s stance on the
exclusivity of Nation jurisdiction over former Cherokee
reservation land.21 “[T]he fact that an agency had a

The Assistant Secretary justified departing from those court pronouncements because (1) they predated the 1994 IRA Amendment and the 1999 Appropriations Act, and (2) they were “based
on the Department [of the Interior’s] position at that time,” which
has since been disavowed. Aplt. App. 219.
21

The Nation appears to argue that the Assistant Secretary
misconstrued the IRA Amendment as “mandat[ing] that the Secretary grant [a land-into-trust] application.” Aple. Br. at 47–48.
This is a mischaracterization of the Assistant Secretary’s position. The Assistant Secretary relied on the IRA Amendment to
support the proposition that the UKB share the “privileges and
immunities available” to other Indian tribes; in this case, the
right to assert jurisdiction over its tribal lands. See Aplt. App.
219. The Assistant Secretary never claimed he was mandated to

33a
prior stance does not alone prevent it from changing
its view or create a higher hurdle for doing so.” F.C.C.
v. Fox Television Stations, Inc., 556 U.S. 502, 519, 129
S.Ct. 1800, 173 L.Ed.2d 738 (2009). And neither the
district court nor the Region confronted the Assistant
Secretary’s alternative theory that a shared-jurisdiction
arrangement could be implemented.22 Accordingly, we
reverse the district court’s holding that the BIA
abused its discretion in its consideration of the
jurisdictional-conflicts criterion.
2.
The district court held that the BIA’s consideration
of 25 C.F.R. § 151.10(g)—which requires the Secretary
to consider “whether the [BIA] is equipped to discharge the additional responsibilities resulting from
the acquisition of the land in trust status”—was
arbitrary and capricious. Op. at 19. As with
the jurisdictional-conflicts criterion, the Region and
the Assistant Secretary disputed whether the
administrative-burden criterion should defeat the UKB
application. The district court sided with the Region.
Again, we reverse.
approve a land-into-trust application, only that he cannot privilege or diminish one tribe over another.
22

The Nation argues that the “examples of shared jurisdiction
given by the Secretary are not on point.” Aple. Br. at 50. The
Nation asserts that in every case but one, “the tribes involved
share ownership of the land and thus have economic and political
incentives to cooperate.” Id. No such supposed incentives exist
here because the UKB owns the Subject Tract in fee. In the
remaining example, the Nation claims that the tribes sharing
jurisdiction “are in constant conflict.” Id. (referencing disputes
between the Creek Nation and Thlopthlocco Tribal Town). We
find the Nation’s arguments speculative in nature and insufficient to demonstrate that the BIA abused its discretion.

34a
In response to the Region’s initial denial of the UKB
application in 2006, the Assistant Secretary requested
the Region to reconsider the application and more fully
explain its reasoning regarding the administrativeburden criterion. Aplt. App. 172 (2008 Directive). The
Assistant Secretary noted that the “proposed trust
land is a small parcel of land” and that “[i]t would not
appear that supervision needs to be extensive[.]” Id. In
its 2008 denial of the UKB application, the Region
explained that the local Bureau agency responsible for
providing services in the area had closed, and those
services were contracted to the Nation.23 Aplt. App.
318. The Region was concerned that the UKB would
reject the provision of services by the Nation and insist
that the Region provide the services instead. Id. The
Region concluded that it lacked the resources to
provide the services. Id.
The Assistant Secretary was unpersuaded. In his
June 2009 Decision, he stated that the Region “failed
to substantiate [its] decision” and “fail[ed] to identify
specific duties that the BIA will incur.” Aplt. App. 221.
The Assistant Secretary found that the Region failed
to demonstrate which services the BIA would be
required to provide for the Subject Parcel, and did not
explain why the services could not be administered by
the Region or contracted to the UKB. Id. Accordingly,
the Assistant Secretary reiterated his stance from the
2008 Directive: the burden of providing administrative
services would be negligible. Id. As with the
jurisdictional-conflicts criterion, the Region was bound
by the Assistant Secretary’s findings.

23

Such services include realty, tribal court, and law enforcement. Aplt. App. 318.

35a
Again, we conclude that the BIA considered the
relevant factors and did not make a clear error of
judgment. Overton Park, 401 U.S. at 416, 91 S.Ct. 814.
The relatively small size of the Subject Parcel and the
fact that BIA services have been provided in the past
suggest that any additional administrative burden
will not be unreasonable. We have considered the
Region’s counterarguments, but we conclude that the
Assistant Secretary’s position is not “so implausible
that it could not be ascribed to a difference in view[.]”
Motor Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm
Mut. Auto. Ins. Co., 463 U.S. 29, 43, 103 S.Ct. 2856, 77
L.Ed.2d 443 (1983). Therefore, the BIA’s consideration
of the administrative-burden criterion was not arbitrary and capricious.
V.
We reverse the district court’s order holding that the
2011 Decision approving the UKB’s land-into-trust
application was arbitrary and capricious, an abuse of
discretion, and otherwise not in accordance with law.
We hold that (1) the BIA need not consider the definition of “Indian” under the IRA when taking land into
trust pursuant to OIWA; (2) Nation consent is not
required for the BIA to take the Subject Parcel into
trust; and (3) the BIA’s consideration of the section
151.10 regulatory factors was not arbitrary and
capricious. Consequently, we vacate the district
court’s injunction preventing the Secretary from
taking the Subject Parcel into trust.

36a
APPENDIX B
UNITED STATES DISTRICT COURT,
E.D. OKLAHOMA
————
Case No. CIV–14–428–RAW
————
The CHEROKEE NATION,
Plaintiff,
v.
S.M.R. JEWELL, in her official capacity as
Secretary of the Interior, U.S. Department
of the Interior, KEVIN WASHBURN, in his
official capacity as Acting Assistant Secretary
for Indian Affairs, U.S. Department of the
Interior, and ROBERT IMPSON, in his official
capacity as Eastern Oklahoma Regional
Director, Bureau of Indian Affairs,
Defendants,
and
UNITED KEETOOWAH BAND OF CHEROKEE INDIANS
IN OKLAHOMA, and UNITED KEETOOWAH BAND OF
CHEROKEE INDIANS IN OKLAHOMA CORPORATION,
Intervenor/Defendants.
————
Signed 05/31/2017
————

37a
ORDER1
RONALD A. WHITE United States District Judge
Eastern District of Oklahoma
On May 24, 2011, the Bureau of Indian Affairs
(“BIA”), Eastern Oklahoma Region (“Region”) for the
United States Department of the Interior (“DOI”) issued
a Decision (“2011 Decision”) approving an amended
application of the United Keetoowah Band of Cherokee
Indians in Oklahoma (“UKB”) to take a 76 acre tract
located in Cherokee County (“Subject Tract”) into trust
for the use and benefit of the UKB Corporation. The
UKB owns the Subject Tract in fee. The Subject Tract
is also located within the former reservation of the
Cherokee Nation.
The Cherokee Nation filed this action challenging
the 2011 Decision, pursuant to the Administrative
Procedures Act, 5 U.S.C. §§ 701–706 (“APA”) and
25 U.S.C. § 465.2 The Cherokee Nation argues that the
2011 Decision is arbitrary and capricious, an abuse of
discretion, and otherwise not in accordance with law
because, inter alia, there is no statutory or regulatory
authority to take land into trust for the UKB Corporation, the Cherokee Nation’s consent is required to take
the Subject Tract into trust, the 2011 Decision violates
its treaties, and the 2011 Decision ignores precedent,
the jurisdictional conflicts between the Cherokee Nation
and the UKB, and the administrative burdens that
would be created by the trust acquisition.

1

For clarity and consistency herein, when the court cites to
CM/ECF, it uses the pagination assigned by CM/ECF.
2

This section has been transferred to 25 U.S.C. § 5108. For
clarity herein, the court will cite to the new section, but will
continue to refer to it as section “465” in the text.

38a
The Cherokee Nation urges this court to set aside
the 2011 Decision and to enjoin the Secretary of the
Interior (“Secretary”) from accepting the Subject Tract
into trust. Now before the court are the Administrative
Record and the merits briefs submitted by the Cherokee
Nation [Docket No. 67 and 78], by S.M.R. Jewell,
Kevin Washburn, and Robert Impson (“Federal Defendants”) [Docket No. 79–1], and by the UKB [Docket No.
77]. For the reasons set forth below, the court finds in
favor of the Cherokee Nation, remands this action to
the Region, and enjoins the Secretary from taking the
Subject Land into trust for the UKB or the UKB Corporation without the Cherokee Nation’s written consent and full consideration of the jurisdictional conflicts between the Cherokee Nation and the UKB and
the resulting administrative burdens the acquisition
would place on the Region.
History of the UKB Application
Following is the history of the UKB fee-to-trust
application provided in the 2011 Decision. The UKB
initially submitted its application to acquire the Subject Tract3 into trust on June 9, 2004. On April 7, 2006,
the Region issued a decision declining to take the
Subject Tract into trust (“2006 Decision”). The UKB
appealed the 2006 Decision. On May 2, 2008, the Region
requested a remand for reconsideration in response to
a directive issued by the Assistant Secretary—Indian
Affairs (“Assistant Secretary”) on April 5, 2008 (“2008
Directive”). On June 4, 2008, the Interior Board of
Indian Appeals (“IBIA”) vacated the 2006 Decision and
remanded the case to the Region for reconsideration.
3

More specifically defined, the subject tract is “76 acres located in Section 8, Township 16 North, Range 22 East, in Cherokee
County, Oklahoma.” 2011 Decision, Docket No. 67–5, at 45.

39a
On August 6, 2008, the Region again denied the
UKB’s application (“2008 Decision”). The UKB appealed
the 2008 Decision to the IBIA. On September 4, 2008,
the Acting Assistant Secretary informed the IBIA that
he was taking jurisdiction of the appeal.4 The Assistant Secretary then issued decisions dated June 24,
2009 (“2009 Decision”), July 30, 2009, and September
10, 2010 (“2010 Decision”), which vacated the 2008
Decision and remanded the application to the Region.
The Assistant Secretary concluded in his 2010 Decision that the UKB should be allowed to amend its
application to invoke alternative authority for the
acquisition of the land into trust. The UKB amended
its application on October 5, 2010, requesting that the
Subject Tract be taken into trust for the UKB Corporation rather than the UKB and pursuant to Section 3 of
the Oklahoma Indian Welfare Act of June 26, 1936
(“OIWA”), 25 U.S.C. § 503,5 rather than pursuant to
Section 5 of the Indian Reorganization Act of June 18,
1934 (“IRA”), 25 U.S.C. § 465. The Assistant Secretary
sent a letter dated January 21, 2011 to the UKB further clarifying matters pertaining to the application
(“2011 Letter”).
The DOI does not presently hold and has not ever
held any land in trust for the UKB or the UKB Corporation.

4

The Region also noted that the authority to acquire property
in trust is vested in the Secretary and delegated to the Region.
2011 Decision, Docket No. 67–5, at 46.
5

This section has been transferred to 25 U.S.C. § 5203. For
clarity herein, the court will cite to the new section, but will continue to refer to it as section “503” in the text.

40a
2011 Decision Findings6
In accordance with the Assistant Secretary’s June
24, 2009, July 30, 2009 and September 10, 2010
Decisions, his June 21, 2011 Letter to the UKB, and
the Region’s review and evaluation of the UKB’s
amended application, the Region found that statutory
authority for the acquisition of the Subject Tract in
trust for the UKB Corporation exists in 25 C.F.R
§§ 151.3(a)(2) and (3) and Section 3 of the OIWA, 25
U.S.C. § 503. 2011 Decision, Docket No. 67–5, at 53.
In the 2011 Decision, the Region made the following
findings:
1. 25 C.F.R. § 151.3 & OIWA
The Region found that 25 C.F.R. § 151.3(a)7 authorizes the Secretary to take land into trust for the UKB

6

Incorporated by reference in the 2011 Decision are the Assistant Secretary’s April 5, 2008 Directive; his June 24, 2009, July
30, 2009 and September 10, 2010 Decisions; and his June 21,
2011 Letter to the UKB.
7

Land not held in trust or restricted status may only be
acquired for an individual Indian or a tribe in trust status when
such acquisition is authorized by an act of Congress. No acquisition of land in trust status, including a transfer of land already
held in trust or restricted status, shall be valid unless the acquisition is approved by the Secretary.
(a) Subject to the provisions contained in the acts of Congress
which authorize land acquisitions, land may be acquired for
a tribe in trust status:
(1) When the property is located within the exterior
boundaries of the tribe’s reservation or adjacent thereto,
or within a tribal consolidation area; or
(2) When the tribe already owns an interest in the land;
or

41a
Corporation. 2011 Decision, Docket No. 67–5, at 46
and 53. Section 151.3(a)(2) applies because the UKB
owns the Subject Tract in fee. Section 151.3(a)(3)
applies because the Secretary found that the UKB has
a need for the Subject Tract to be taken into trust so
that the UKB may exercise jurisdiction over it, thus
facilitating tribal self-determination. Id. at 46.
The Region further found that “Section 3 of the
OIWA, 25 U.S.C. § 5038, implicitly authorizes the Secretary to take land into trust for the UKB Corporation.” Id. at 46 and 53. Pertinent to the Region’s finding is the following language: “Such charter may convey to the incorporated group, in addition to any
(3) When the Secretary determines that the acquisition of
the land is necessary to facilitate tribal self-determination,
economic development, or Indian housing.
25 C.F.R. § 151.3.
8

Any recognized tribe or band of Indians residing in
Oklahoma shall have the right to organize for its common welfare
and to adopt a constitution and bylaws, under such rules and
regulations as the Secretary of the Interior may prescribe. The
Secretary of the Interior may issue to any such organized group
a charter of incorporation, which shall become operative when
ratified by a majority vote of the adult members of the organization voting: Provided, however, That such election shall be void
unless the total vote cast be at least 30 per centum of those
entitled to vote. Such charter may convey to the incorporated
group, in addition to any powers which may properly be vested in
a body corporate under the laws of the State of Oklahoma, the
right to participate in the revolving credit fund and to enjoy any
other rights or privileges secured to an organized Indian tribe
under the Act of June 18, 1934 (48 Stat. 984): Provided, That the
corporate funds of any such chartered group may be deposited in
any national bank within the State of Oklahoma or otherwise
invested, utilized, or disbursed in accordance with the terms of
the corporate charter. 25 U.S.C. § 5203 (West) (formerly cited as
25 U.S.C. § 503) (emphasis in original).

42a
powers which may properly be vested in a body corporate under the laws of the State of Oklahoma, the
right . . . to enjoy any other rights or privileges secured
to an organized Indian tribe under the [IRA].” 25 U.S.C.
§ 5203 (West) (formerly cited as 25 U.S.C. § 503).
2. 25 C.F.R. § 151.8 & 1999 Appropriations Act—
Consent/Consultation
The Region determined that consultation with, rather
than the consent of, the Cherokee Nation is required
before the Secretary may take land into trust for the
UKB Corporation. The Subject Tract is located within
the former reservation9 of the Cherokee Nation. Specifically, it “is located within the last treaty boundaries
of the Cherokee Nation as defined by the terms of the
Treaty of New Echota . . . and the 1866 treaty between
the Cherokee Nation and the United States . . . .” 2011
Decision, Docket No. 67–5, at 47. An Indian tribe10
“may acquire land in trust status on a reservation
other than its own only when the governing body of the
tribe having jurisdiction over such reservation consents
in writing to the acquisition . . . .” 25 C.F.R. § 151.8
(emphasis added).

9

A reservation is defined as “that area of land constituting the
former reservation of the tribe as defined by the Secretary.” 25
C.F.R. § 151.2(f).
10

“Tribe means any Indian tribe, band, nation, pueblo, community, Rancheria, colony, or other group of Indians . . . which is
recognized by the Secretary as eligible for the special programs
and services from the Bureau of Indian Affairs. For purposes of
acquisitions made under the authority of 25 U.S.C. 188 and 489,
or other statutory authority which specifically authorizes trust
acquisitions for such corporations, “Tribe” also means a corporation chartered under section 17 of the Act of June 18, 1934.” 25
C.F.R. § 151.2(b) (emphasis added).

43a
The Region concluded, however, that Congress overrode the consent requirement of 25 C.F.R. § 151.8 with
respect to lands within the boundaries of the former
Cherokee reservation by including in the “Interior and
Related Agencies Appropriations Act of 1999”11 (“1999
Appropriations Act”) the following language: “until
such time as legislation is enacted to the contrary, no
funds shall be used to take land into trust within
the boundaries of the original Cherokee territory in
Oklahoma without consultation with the Cherokee
Nation.” 1999 Appropriations Act, 112 Stat. 2681–246
(emphasis added). The Region consulted with the
Cherokee Nation.12
3. 25 C.F.R. § 151.9—The Application
The Region found that the amended fee-to-trust
application dated October 5, 2010 by the UKB requesting that the Subject Tract be placed in trust for the
UKB Corporation satisfied the requirements of 25
C.F.R. § 151.9.13

11

Omnibus Consolidated and Emergency Supplemental Appropriations Act, 1999, Pub. L. No. 105–277, 112 Stat. 2681 (Oct. 21,
1998).
12

Whether that consultation was sufficient is in dispute, but
given the court’s rulings herein, the court need not reach this
question.
13

“An individual Indian or tribe desiring to acquire land in
trust status shall file a written request for approval of such acquisition with the Secretary. The request need not be in any special
form but shall set out the identity of the parties, a description of
the land to be acquired, and other information which would show
that the acquisition comes within the terms of this part.” 25
C.F.R. § 151.9.

44a
4. 25 C.F.R. §§ 151.10 and 151.11—Evaluating
Criteria
Section 151.10 lists criteria the Secretary must consider when evaluating requests for acquisition of land
in trust when the land is “on-reservation.”14 Section
151.11 lists the criteria to be considered for land that
is “off-reservation.”15 The Assistant Secretary determined that he need not decide whether the Subject
Tract is an on—or off-reservation acquisition, as the

14

The Secretary considers the following criteria:
(a) The existence of statutory authority for the acquisition
and any limitations contained in such authority; (b) The
need of the individual Indian or the tribe for the additional
land; (c) The purposes for which the land will be used; (d) If
the land is to be acquired for an individual Indian, the
amount of trust or restricted land already owned by or for
that individual and the degree to which he needs assistance
in handling his affairs; (e) If the land to be acquired is in
unrestricted fee status, the impact on the State and its
political subdivisions resulting from the removal of the land
from the tax rolls; (f) Jurisdictional problems and potential
conflicts of land use which may arise; and (g) If the land to
be acquired is in fee status, whether the Bureau of Indian
Affairs is equipped to discharge the additional responsibilities from the acquisition of the land in trust status.

25 C.F.R. § 151.10. Subsection (h) requires the applicant to
provide information that allows the Secretary to comply with
environmental standards. Id.
15

Section 151.11 states in part that the Secretary shall
consider the “criteria listed in § 151.10 (a) through (c) and (e)
through (h).” 25 C.F.R. § 151.11(a). After those considerations are
addressed, the section addresses concerns regarding relations
with state and local governments and anticipated economic
benefits. 25 C.F.R. § 151.11(b)–(d).

45a
result is the same under both analyses.16 Following are
the Region’s findings as to each of the criteria listed in
§ 151.10:
(a) As noted above, the Region found statutory
authority in Section 3 of the OIWA, 25 U.S.C. § 503.
(b) As noted above, the Region determined that
the UKB, having no land in trust, has a need for
this land to be taken into trust to facilitate tribal
self-determination.
(c) The Region found that the UKB’s stated uses
for the Subject Tract—for the operation of programs that provide services to its tribal members—
are permissible. The Subject Tract holds community program buildings and a dance ground. 2008
Directive, Docket No. 67–2, at 185. The UKB’s
application did not identify any expected changes
in the intended use of the property.
(d) As the application is not for an individual, this
section did not apply.
(e) The Region found that the impact on the state
and local governments resulting from the removal
of the Subject Tract from the tax rolls would be
insignificant.
(f) As noted above, the Subject Tract is located
within the treaty boundaries of the Cherokee
Nation as defined by the terms of the Treaty of
New Echota and the 1866 treaty between the
Cherokee Nation and the United States. The BIA
has consistently recognized this area as the
‘former reservation’ of the Cherokee Nation. 2011
16

In his 2010 Decision, the Assistant Secretary also withdrew
his former conclusion that the UKB is a successor in interest to
the “historic Cherokee Nation.”

46a
Decision, Docket No. 67–5, at 50. The Region “twice
previously concluded that the potential for jurisdictional problems between the Cherokee Nation
and the UKB is of utmost concern and weighed
heavily against approval of the acquisition.” 2011
Decision, Docket No. 67–5, at 51. The Region
noted that it has been recognized in federal courts
that the Cherokee Nation is the only tribal entity
with jurisdictional authority within its former
reservation. The Region further noted that if the
Subject Tract is placed into trust for the UKB,
both the UKB and the Cherokee Nation would
assert jurisdiction over the property. The Assistant Secretary, however, found that the Cherokee
Nation does not have exclusive jurisdiction within
its former reservation17 and that the UKB would
have exclusive jurisdiction over land taken into
trust for it.18 The Assistant Secretary further
found that “the perceived jurisdictional conflicts
between the UKB and the CN are not so significant that I should deny the UKB’s application.”
2011 Decision, Docket No. 67–5, at 51–52. The
Region remains concerned that jurisdictional conflicts will arise between the UKB and the Cherokee
Nation if the Subject Tract is placed into trust for
17

The Assistant Secretary noted that the conclusion that the
Cherokee Nation does not have exclusive jurisdiction within its
former reservation is consistent with the 1999 Appropriations
Act’s requirement of only the Cherokee Nation’s consultation
rather than consent before funds could be used to acquire land
within its former reservation. 2009 Decision, Docket No. 67–3, at
89.
18

The Assistant Secretary noted that even if the UKB and the
Cherokee Nation had shared jurisdiction over the Subject Tract,
they should be able to find a workable solution. 2009 Decision,
Docket No. 67–3, at 89–90.

47a
the UKB. Nevertheless, the Assistant Secretary’s
findings are binding on the Region.
(g) The Region found that the Cherokee Nation
currently administers programs for the Subject
Tract including, but not limited to, real estate
services, tribal court services, and law enforcement services. The Region further found that if
the Subject Tract is placed into trust for the UKB,
the UKB would likely reject the authority of the
Cherokee Nation and insist that the Region
provide direct services. The Region previously
determined and remains concerned that this trust
acquisition would create a need for these programs
and that the Region does not have funds in its
budget to provide them. Nevertheless, the Assistant
Secretary determined that the duties associated
with this trust acquisition would not be significant. Again, the Assistant Secretary’s determination is binding on the Region.
(h) The Region determined that there is no evidence to indicate that any change in land use is
planned for the Subject Tract and no environmental assessment is necessary.
STANDARD OF REVIEW
When a final agency action19 is challenged, the
reviewing court “shall decide all relevant questions of
law, interpret constitutional and statutory provisions,20
19

It is undisputed that the 2011 Decision is a final agency deci-

sion.
20

When a court reviews an agency’s construction of the statute
which it administers, it is confronted with two questions. First,
always, is the question whether Congress has directly spoken to
the precise question at issue. If the intent of Congress is clear,
that is the end of the matter; for the court, as well as the agency,

48a
and determine the meaning or applicability of the
terms of an agency action.” 5 U.S.C. § 706. The APA
further provides in pertinent part that the court shall
“hold unlawful and set aside agency action, findings,
and conclusions found to be—(A) arbitrary, capricious,
an abuse of discretion, or otherwise not in accordance
of law; . . . (C) in excess of statutory jurisdiction,
authority, or limitations, or short of statutory right;
[or] (D) without observance of procedure required by
law; . . . .” 5 U.S.C. § 706(2).
An agency’s action is arbitrary and capricious if the
agency “entirely failed to consider an important aspect
of the problem, offered an explanation for its decision
that runs counter to the evidence before the agency, or
is so implausible that it could not be ascribed to a
difference in view or the product of agency expertise.”
United Keetoowah Band of Cherokee Indians of Okla.
v. United States Dept. of Housing and Urban Dev., 567
F.3d 1235, 1239 (10th Cir. 2009) (citation omitted).
The standard of review is narrow, and the court may
not substitute its judgment for that of the agency. Id.
Nevertheless, the court must “engage in a substantial
inquiry” and conduct a “thorough, probing, in-depth
review.” Id.

must give effect to the unambiguously expressed intent of Congress. If, however, the court determines Congress has not directly
addressed the precise question at issue, the court does not simply
impose its own construction on the statute, as would be necessary
in the absence of an administrative interpretation. Rather, if the
statute is silent or ambiguous with respect to the specific issue,
the question for the court is whether the agency’s answer is based
on a permissible construction of the statute.
Chevron, U.S.A., Inc. v. Natural Res. Def. Council, Inc., 467
U.S. 837, 842–43 (1984).

49a
ANALYSIS
Statutory Authority
The Region found that statutory authority for the
acquisition of the Subject Tract in trust for the UKB
Corporation exists in 25 C.F.R §§ 151.3(a)(2) and (3)
and Section 3 of the OIWA, 25 U.S.C. § 503. The
Region is correct that sections 151.3(a)(2) and (3) are
applicable, as the UKB owns the Subject Tract in fee
and the Secretary has determined that acquisition
of it in trust is necessary to facilitate tribal selfdetermination. Of course, as noted in section 151.3,
the acquisition must be authorized by an act of Congress.
The Region found that Section 3 of the OIWA, 25
U.S.C. § 503 implicitly authorizes the acquisition.
That section provides that the Secretary may issue a
charter of incorporation to a recognized band of Indians
in Oklahoma. Section 503 further provides that the
corporation then has the right to “enjoy any other
rights or privileges secured to an organized Indian
tribe under the Act of June 18, 1934 (48 Stat. 984)”—
the IRA. 25 U.S.C. § 5203 (West) (formerly cited as 25
U.S.C. § 503). The explicit authority, therefore, lies in
the IRA.
Section 46521 of the IRA authorizes the Secretary to
take land into trust “for the purpose of providing lands
21

The Secretary of the Interior is authorized, in his discretion,
to acquire, through purchase, relinquishment, gift, exchange,
or assignment, any interest in lands, water rights, or surface
rights to lands, within or without existing reservations,
including trust or otherwise restricted allotments, whether
the allottee be living or deceased, for the purpose of providing land for Indians.
* * *

50a
for Indians.” 25 U.S.C. § 5108 (West) (formerly cited as
25 U.S.C. § 465). As section 503 provides a corporation
formed thereunder the same rights provided in the
IRA, the Region is correct that statutory authority
exists to take land into trust for the UKB Corporation.22
The next question, however, is whether section 503
provides a path to utilize one portion of the IRA without regard to its other provisions and definitions or
whether the IRA must be taken as a whole. Section
503 does not extend to corporations formed thereunder
the same rights and privileges provided in section 465;
it provides them the same rights and privileges provided in the IRA. An Indian tribe or individual Indian
under the IRA is subject to that statute as a whole. To
allow a corporation formed under the OIWA to enjoy a
portion of the IRA’s provisions without regard to its
other provisions and definitions would be to provide it
more rights and privileges than the IRA provides.
Moreover, this court “construes statutes ‘so that
effect is given to all its provisions, so that no part will
Title to any lands or rights acquired pursuant to this Act or
the Act of July 28, 1955 (69 Stat. 392), as amended (25
U.S.C. 608 et seq.) shall be taken in the name of the United
States in trust for the Indian tribe or individual Indian for
which the land is acquired, and such lands or rights shall be
exempt from State and local taxation.
25 U.S.C. § 5108 (West) (formerly cited as 25 U.S.C. § 465).
22

The Cherokee Nation argues that pursuant to 25 C.F.R.
§ 151.2(b), the Secretary may not take land into trust for a corporation chartered under OIWA unless the statutory authority
specifically authorizes it. Without regard to “implicit” or “explicit”
grants of authority, the court finds that section 503 specifically
grants the rights that were granted in the IRA, including the
right to have land taken into trust.

51a
be inoperative or superfluous, void or insignificant.’”
In re Mallo, 774 F.3d 1313, 1317 (10th Cir. 2014) (citation omitted). The court reads “statutes as a whole,
with no section interpreted ‘in isolation from the context of the whole Act.’” United States v. Al Kassar, 660
F.3d 108, 124 (2d Cir. 2011) (citation omitted). See also
Samantar v. Yousuf, 560 U.S. 305, 319 (2010).
Accordingly, the court must look to the IRA as a
whole to determine whether the Secretary may take
land into trust for the UKB Corporation pursuant to
section 465. In 2009, the Supreme Court issued a
decision interpreting a portion of the IRA. Carcieri v.
Salazar, 555 U.S. 379 (2009). The parties disagree as
to the import of that decision on the UKB’s proposed
acquisition.
The Impact of Carcieri
Section 47923 of the IRA provides in pertinent part:
The term “Indian” as used in this Act shall include
all persons of Indian descent who are members of
any recognized Indian tribe now under Federal
jurisdiction, and all persons who are descendants
of such members who were, on June 1, 1934, residing within the present boundaries of any Indian
reservation, and shall further include all other
persons of one-half or more Indian blood.
25 U.S.C.A. § 5129 (West) (formerly cited as 25 U.S.C.
§ 479) (emphasis added).24 The OIWA does not contain
23

This section has been transferred to 25 U.S.C. § 5129. For
clarity herein, the court will cite to the new section, but will
continue to refer to it as section “479” in the text.
24

The regulations setting forth the authorities, policies, and
procedures governing acquisitions of land in trust for individual
Indians and tribes include a definition of the term that is similar
to the one provided in the IRA. The regulations define an

52a
a definition of the term “Indian.” The Federal Defendants argue that the OIWA applies to “[a]ny recognized
tribe or band of Indians residing in Oklahoma,” and
thus a definition of “Indian” was not necessary. The
court disagrees. Moreover, as the OIWA points to the
IRA, the definition of the term “Indian” therein is
applicable to any acquisition thereunder. Section 465
provides the right to have land taken into trust “for
the purpose of providing land for Indians.” Section 479
defines “Indians.” “There is simply no legitimate way
to circumvent the definition of ‘Indian’ in delineating
the Secretary’s authority under §§ 465 and 479.”
Carcieri, 555 U.S. at 393.
The Supreme Court in Carcieri held that “the term
‘now under Federal jurisdiction’ in § 479 unambiguously refers to those tribes that were under the federal
jurisdiction of the United States when the IRA was
enacted in 1934.” Carcieri, 555 U.S. at 395 (emphasis
added). This holding is very narrow, applying to only
one of three of the definitions included in section 479.
While the Assistant Secretary mentions the Carcieri
holding in his 2009 and 2010 Decisions and invites
briefing from the Cherokee Nation and the UKB, he
does not provide an opinion as to how it might affect
the UKB’s proposed acquisition. The Assistant Secretary suggests taking the Subject Tract into trust
pursuant to Section 3 of the OIWA rather than
pursuant to the IRA and appears to believe that this
avenue circumvents the need to consider the Carcieri
“Individual Indian” as: (1) Any person who is an enrolled member
of a tribe; (2) Any person who is a descendent of such a member
and said descendant was, on June 1, 1934, physically residing on
a federally recognized Indian reservation; (3) Any other person
possessing a total of one-half or more degree Indian blood of a
tribe . . . .” 25 C.F.R. § 151.2(c).

53a
ruling. The Region, therefore, does not discuss
Carcieri in the 2011 Decision. As the Carcieri ruling is
so narrow, it may not prevent the Secretary from
taking land into trust for the UKB or the UKB
Corporation. Nevertheless, the court will not opine on
the issue in the first instance. Upon remand, before
taking any land into trust for the UKB or the UKB
Corporation, the Region shall reach the question of
how any acquisition for the UKB or the UKB
Corporation is affected by Carcieri.
The Application
Citing the regulations, 25 C.F.R. § 151.1, et seq., and
the DOI Fee to Trust Handbook, the Cherokee Nation
argues that the Assistant Secretary abused his discretion by processing an application filed by the UKB for
the UKB Corporation. The Cherokee Nation argues
that the DOI Handbook states that the Secretary shall
base any decision to make a trust acquisition on the
criteria set forth in the regulations. The regulations
provide:
An individual Indian or tribe desiring to acquire
land in trust status shall file a written request for
approval of such acquisition with the Secretary.
The request need not be in any special form but
shall set out the identity of the parties, a description of the land to be acquired, and other information which would show that the acquisition
comes within the terms of this part.
25 C.F.R. § 151.9. The court finds that the application
by the UKB on behalf of the UKB Corporation satisfied
the requirements.

54a
Cherokee Nation Consent
The Region determined that Congress overrode the
consent requirement in 25 C.F.R. 151.8 with the passage of the 1999 Appropriations Act. The Cherokee
Nation argues that Congress did not override the consent requirement with the passage of the 1999 Appropriations Act. The court agrees with the Cherokee
Nation.
The regulations at 25 C.F.R. § 151.1, et seq. govern
the acquisition of land in trust for individual Indians
and tribes. Section 151.8 provides that an individual
Indian or tribe “may acquire land in trust status on a
reservation other than its own only when the governing body of the tribe having jurisdiction over such
reservation consents in writing to the acquisition.”
25 C.F.R. § 151.8 (emphasis added). This section was
revisited in 2001. Id. Congress did not remove the
consent requirement from trust acquisitions within
the former reservation of the Cherokee Nation.
The 1999 Appropriations Act provides that “until
such time as legislation is enacted to the contrary, no
funds shall be used to take land into trust within
the boundaries of the original Cherokee territory in
Oklahoma without consultation with the Cherokee
Nation.” 1999 Appropriations Act, 112 Stat. 2681–246
(emphasis added). The court understands the confusion. As the Federal Defendants and the UKB argue,
words have meaning. The fact that Congress changed
“consent” in the 1992 Appropriations Act to “consultation” in the 1999 Appropriations Act seems to support
their argument.
The 1999 Appropriations Act, however, applies to
funding. It does not override the land acquisitions regulations. It is well established that “repeals by impli-

55a
cation are not favored.” United States v. Will, 449 U.S.
200, 221 (1980) (citation omitted). If Congress intended
to remove the consent requirement for trust acquisitions within the former reservation of the Cherokee
Nation, it could have explicitly stated so within the
regulations when it revisited those regulations.25 The
consent requirement for any acquisition of trust land
on a reservation other than a tribe’s own remains. The
Cherokee Nation is correct that its consent is required
before land may be taken into trust in its former
reservation.26
Treaties, Precedent and Jurisdictional Conflicts
The court agrees with the Cherokee Nation’s arguments that taking land into trust within the Cherokee
Nation’s former reservation without its consent violates its treaties, is contrary to precedent, and ignores
the jurisdictional conflicts. The 1866 Treaty with the
Cherokee Nation provides: “The United States guarantee to the people of the Cherokee Nation the quiet
25

“It is a ‘fundamental canon of statutory construction that,
when there is an apparent conflict between a specific provision
and a more general one, the more specific one governs.’” Shawnee
Tribe v. United States, 423 F.3d 1204, 1213 (10th Cir. 2005) (citation omitted). Of course, “[s]uch determinations can frequently be
flipped.” Reames v. Oklahoma ex re. OK Health Care Auth., 411
F.3d 1164, 1172–73, n. 7 (10th Cir. 2005). In this case, the
provisions are not conflicting. Section 151.8 applies to trust acquisitions, while the 1999 Appropriations Act applies only to funding.
26

The Assistant Secretary noted that 25 U.S.C. § 476(g) (now
§ 5123(g)) “prohibits the Department from finding that the UKB
lacks territorial jurisdiction while other tribes have territorial
jurisdiction.” 2009 Decision, Docket No. 67–3, at 88. Even if this
conclusion is correct, it does not follow that land may be taken
from one tribe’s jurisdiction without its consent and placed into
trust for another tribe.

56a
and peaceable possession of their country and protection against domestic feuds and insurrections, and
against hostilities of other tribes.” 1866 Treaty with
the Cherokee Nation, art. 26, July 19, 1866, 14 Stat.
799. The members of the UKB are also Cherokee; thus,
this could be considered a “domestic feud or insurrection.” The UKB is also an independent tribe; thus, this
could be considered “hostility of another tribe,” as the
UKB has announced its intention to assert exclusive
jurisdiction over the Subject Tract. In either event, the
1866 Treaty guaranteed the Cherokee Nation protection against it.
Even if the court erred in the previous section and
Congress intended to override the consent requirement in 25 C.F.R. § 151.8, Congress did not override
the United States treaties with the Cherokee Nation.
To override a treaty, there must be “clear evidence
that Congress actually considered the conflict between
its intended action on the one hand and Indian treaty
rights on the other, and chose to resolve that conflict
by abrogating the treaty.” United States v. Dion, 476
U.S. 734, 739–40 (1986). There is no evidence of such
intent.
Additionally, the BIA has consistently recognized
the Subject Tract as being within the ‘former reservation’ of the Cherokee Nation. 2011 Decision, Docket
No. 67–5, at 50. The Cherokee Nation is the only
Indian tribe with trust land within its former reservation. The BIA has never taken land into trust for the
UKB or any Indian tribe other than the Cherokee
Nation within the former reservation of the Cherokee
Nation. The Assistant Secretary dismissed this precedent spanning well over a century, however, citing his
opinion that the 1999 Appropriations Act negated the
Cherokee Nation’s exclusive jurisdiction within its

57a
former reservation. “Agencies are under an obligation
to follow their own regulations, procedures, and precedents, or provide a rational explanation for their
departure.” Utahns for Better Transp. v. U.S. Department of Transp., 305 F.3d 1152, 1165 (10th Cir. 2002).
The Assistant Secretary did not follow the BIA’s
precedent and did not provide an adequate rational
explanation for his departure.
Furthermore, as the Cherokee Nation does not
intend to relinquish exclusive jurisdiction and the
UKB intends to assert exclusive jurisdiction over the
Subject Tract if it is placed into trust, the Region has
twice concluded and remains concerned “that the
potential for jurisdictional problems between the
Cherokee Nation and the UKB is of utmost concern
and weigh[s] heavily against approval of the acquisition.” 2011 Decision, Docket No. 67–5, at 51. The
Region has also stated: “UKB’s need to have this property taken into trust is outweighed by the potential for
jurisdictional problems, conflicts of land use and the
additional burdens that would be placed upon the
Region were it to be taken into trust . . . .” 2008
Decision, Docket No. 67–3, at 10 (emphasis in original). There is no evidence of any change in the
circumstances regarding the jurisdictional conflict.
The Assistant Secretary, however, dismissed this concern, finding that “the perceived jurisdictional conflicts
between the UKB and the CN are not so significant
that I should deny the UKB’s application.” 2011 Decision, Docket No. 67–5, at 51–52. The court finds this
was arbitrary and capricious, as the Assistant Secretary entirely failed to consider an important aspect of
the problem and offered an explanation that ran
counter to the evidence before him.

58a
BIA Additional Responsibilities
The Region found that the Cherokee Nation currently administers programs for the Subject Tract
including, but not limited to, real estate services,
tribal court services, and law enforcement services.
The Region further found that if the Subject Tract is
placed into trust for the UKB or the UBK Corporation,
the UKB would likely reject the authority of the
Cherokee Nation and insist that the Region provide
direct services. The Region previously determined and
remains concerned that this trust acquisition would
create a need for these programs and that the Region
does not have funds in its budget to provide them.
Nevertheless, the Assistant Secretary dismissed these
concerns and found that the duties would not be significant. The court finds this was arbitrary and capricious, as the Assistant Secretary entirely failed to
consider an important aspect of the problem and offered
an explanation that ran counter to the evidence before
him.
CONCLUSION
The 2011 Decision was arbitrary and capricious, an
abuse of discretion, and otherwise not in accordance
with law. Accordingly, the court finds in favor of the
Cherokee Nation and remands this action to the
Region. Furthermore, in accordance with the court’s
findings herein, the Secretary is enjoined from taking
the Subject Tract into trust without the Cherokee
Nation’s written consent and full consideration of the
jurisdictional conflicts and the resulting administrative burdens the acquisition would place on the Region.
Before taking any land into trust for the UKB or the
UKB Corporation, the Region shall consider the effect
of Carcieri on such acquisition.
IT IS SO ORDERED this 31st day of May, 2017.

59a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
[Filed November 8, 2019]
————
No. 17-7042
————
THE CHEROKEE NATION,
Plaintiff-Appellee,
v.
DAVID BERNHARDT, in his official
capacity as Secretary of the Interior,
U.S. Department of the Interior, et al.,
Defendants,
and
UNITED KEETOOWAH BAND OF CHEROKEE
INDIANS IN OKLAHOMA, et al.,
Intervenors Defendants-Appellants.
————
No. 17-7044
————
THE CHEROKEE NATION,
Plaintiff-Appellee,
v.
DAVID BERNHARDT, in his official
capacity as Secretary of the Interior,
U.S. Department of the Interior, et al.,
Defendants-Appellants,

60a
and
UNITED KEETOOWAH BAND OF CHEROKEE
INDIANS IN OKLAHOMA, et al.,
Intervenors Defendants-Appellants.
————
ORDER
Before MATHESON, McHUGH, and EID, Circuit
Judges.
Appellee’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted
to all of the judges of the court who are in regular active
service. As no member of the panel and no judge in
regular active service on the court requested that the
court be polled, that petition is also denied.
Entered for the Court
/s/ Elisabeth A. Shumaker ________
ELISABETH A. SHUMAKER, Clerk

61a
APPENDIX D
————
STATUTORY AND REGULATORY
PROVISIONS INVOLVED
————
INDIAN REORGANIZATION ACT OF JUNE 18, 1934
(Excerpts)
25 U.S.C. § 5107. Transfer and exchange of
restricted Indian lands and shares of Indian
tribes and corporations
Except as provided in this Act, no sale, devise, gift,
exchange, or other transfer of restricted Indian lands
or of shares in the assets of any Indian tribe or
corporation organized under this Act shall be made or
approved: Provided, That such lands or interests may,
with the approval of the Secretary of the Interior, be
sold, devised, or otherwise transferred to the Indian
tribe in which the lands or shares are located or from
which the shares were derived, or to a successor
corporation: Provided further, That, subject to section
8(b) of the American Indian Probate Reform Act of
2004 (Public Law 108-374; 25 U.S.C. 2201 note), lands
and shares described in the preceding proviso shall
descend or be devised to any member of an Indian tribe
or corporation described in that proviso or to an heir
or lineal descendant of such a member in accordance
with the Indian Land Consolidation Act (25 U.S.C.
2201 et seq.), including a tribal probate code approved,
or regulations promulgated under, that Act: Provided
further, That the Secretary of the Interior may
authorize any voluntary exchanges of lands of equal
value and the voluntary exchange of shares of equal
value whenever such exchange, in the judgment of

62a
the Secretary, is expedient and beneficial for or
compatible with the proper consolidation of Indian
lands and for the benefit of cooperative organizations.
25 U.S.C. § 5108. Acquisition of lands, water
rights or surface rights; appropriation; title to
lands; tax exemption
The Secretary of the Interior is authorized, in his
discretion, to acquire, through purchase, relinquishment, gift, exchange, or assignment, any interest in
lands, water rights, or surface rights to lands, within
or without existing reservations, including trust or
otherwise restricted allotments, whether the allottee
be living or deceased, for the purpose of providing land
for Indians.
For the acquisition of such lands, interests in lands,
water rights, and surface rights, and for expenses
incident to such acquisition, there is authorized
to be appropriated, out of any funds in the Treasury
not otherwise appropriated, a sum not to exceed
$2,000,000 in any one fiscal year: Provided, That no
part of such funds shall be used to acquire additional
land outside of the exterior boundaries of Navajo
Indian Reservation for the Navajo Indians in Arizona,
nor in New Mexico, in the event that legislation to
define the exterior boundaries of the Navajo Indian
Reservation in New Mexico, and for other purposes, or
similar legislation, becomes law.
The unexpended balances of any appropriations
made pursuant to this section shall remain available
until expended.
Title to any lands or rights acquired pursuant to this
Act or the Act of July 28, 1955 (69 Stat. 392), as
amended (25 U.S.C. 608 et seq.) shall be taken in the
name of the United States in trust for the Indian tribe

63a
or individual Indian for which the land is acquired,
and such lands or rights shall be exempt from State
and local taxation.
25 U.S.C. § 5110. New Indian reservations
The Secretary of the Interior is hereby authorized to
proclaim new Indian reservations on lands acquired
pursuant to any authority conferred by this Act, or to
add such lands to existing reservations: Provided,
That lands added to existing reservations shall be
designated for the exclusive use of Indians entitled by
enrollment or by tribal membership to residence at
such reservations.
25 U.S.C. § 5118. Application generally
The provisions of this Act shall not apply to any of
the Territories, colonies, or insular possessions of the
United States, except that sections 9, 10, 11, 12, and
16 shall apply to the Territory of Alaska: Provided,
That sections 4, 7, 16, 17, and 18 of this Act shall not
apply to the following-named Indian tribes, the
members of such Indian tribes, together with members
of other tribes affiliated with such named tribes
located in the State of Oklahoma, as follows:
Cheyenne, Arapaho, Apache, Comanche, Kiowa,
Caddo, Delaware, Wichita, Osage, Kaw, Otoe,
Tonkawa, Pawnee, Ponca, Shawnee, Ottawa, Quapaw,
Seneca, Wyandotte, Iowa, Sac and Fox, Kickapoo,
Pottawatomi, Cherokee, Chickasaw, Choctaw, Creek,
and Seminole. Section 4 of this Act shall not apply to
the Indians of the Klamath Reservation in Oregon.

64a
25 U.S.C. § 5123. Organization of Indian tribes;
constitution and bylaws and amendment
thereof; special election
(a) Adoption; effective date
Any Indian tribe shall have the right to organize for
its common welfare, and may adopt an appropriate
constitution and bylaws, and any amendments
thereto, which shall become effective when—
(1) ratified by a majority vote of the adult
members of the tribe or tribes at a special election
authorized and called by the Secretary under such
rules and regulations as the Secretary may
prescribe; and
(2) approved by the Secretary pursuant to
subsection (d) of this section.
(b) Revocation
Any constitution or bylaws ratified and approved by
the Secretary shall be revocable by an election open to
the same voters and conducted in the same manner as
provided in subsection (a) of this section for the
adoption of a constitution or bylaws.
(c) Election procedure; technical assistance; review
of proposals; notification of contrary-to-applicable law
findings
(1) The Secretary shall call and hold an election
as required by subsection (a) of this section—
(A) within one hundred and eighty days after
the receipt of a tribal request for an election to
ratify a proposed constitution and bylaws, or to
revoke such constitution and bylaws; or

65a
(B) within ninety days after receipt of a tribal
request for election to ratify an amendment to the
constitution and bylaws.
(2) During the time periods established by
paragraph (1), the Secretary shall—
(A) provide such technical advice and assistance
as may be requested by the tribe or as the
Secretary determines may be needed; and
(B) review the final draft of the constitution and
bylaws, or amendments thereto to determine if
any provision therein is contrary to applicable
laws.
(3) After the review provided in paragraph (2) and
at least thirty days prior to the calling of the
election, the Secretary shall notify the tribe, in
writing, whether and in what manner the Secretary
has found the proposed constitution and bylaws or
amendments thereto to be contrary to applicable
laws.
(d) Approval or disapproval by Secretary; enforcement
(1) If an election called under subsection (a) of this
section results in the adoption by the tribe of the
proposed constitution and bylaws or amendments
thereto, the Secretary shall approve the constitution
and bylaws or amendments thereto within forty-five
days after the election unless the Secretary finds
that the proposed constitution and bylaws or any
amendments are contrary to applicable laws.
(2) If the Secretary does not approve or disapprove the constitution and bylaws or amendments
within the forty-five days, the Secretary’s approval
shall be considered as given. Actions to enforce the

66a
provisions of this section may be brought in the
appropriate Federal district court.
(e) Vested rights and powers; advisement of presubmitted budget estimates
In addition to all powers vested in any Indian tribe
or tribal council by existing law, the constitution
adopted by said tribe shall also vest in such tribe or its
tribal council the following rights and powers: To
employ legal counsel; to prevent the sale, disposition,
lease, or encumbrance of tribal lands, interests in
lands, or other tribal assets without the consent of the
tribe; and to negotiate with the Federal, State, and
local governments. The Secretary shall advise such
tribe or its tribal council of all appropriation estimates
or Federal projects for the benefit of the tribe prior to
the submission of such estimates to the Office of
Management and Budget and the Congress.
(f) Privileges and immunities of Indian tribes;
prohibition on new regulations
Departments or agencies of the United States shall
not promulgate any regulation or make any decision
or determination pursuant to the Act of June 18, 1934
(25 U.S.C. 461 et seq., 48 Stat. 984) as amended, or
any other Act of Congress, with respect to a federally
recognized Indian tribe that classifies, enhances, or
diminishes the privileges and immunities available to
the Indian tribe relative to other federally recognized
tribes by virtue of their status as Indian tribes.
(g) Privileges and immunities of Indian tribes;
existing regulations
Any regulation or administrative decision or determination of a department or agency of the United
States that is in existence or effect on May 31, 1994,

67a
and that classifies, enhances, or diminishes the
privileges and immunities available to a federally
recognized Indian tribe relative to the privileges and
immunities available to other federally recognized
tribes by virtue of their status as Indian tribes shall
have no force or effect.
(h) Tribal sovereignty
Notwithstanding any other provision of this Act—
(1) each Indian tribe shall retain inherent
sovereign power to adopt governing documents
under procedures other than those specified in this
section; and
(2) nothing in this Act invalidates any constitution or other governing document adopted by an
Indian tribe after June 18, 1934, in accordance with
the authority described in paragraph (1).
25 U.S.C. § 5124. Incorporation of Indian tribes;
charter; ratification by election
The Secretary of the Interior may, upon petition by
any tribe, issue a charter of incorporation to such
tribe: Provided, That such charter shall not become
operative until ratified by the governing body of such
tribe. Such charter may convey to the incorporated
tribe the power to purchase, take by gift, or bequest,
or otherwise, own, hold, manage, operate, and dispose
of property of every description, real and personal,
including the power to purchase restricted Indian
lands and to issue in exchange therefor interests in
corporate property, and such further powers as may be
incidental to the conduct of corporate business, not
inconsistent with law; but no authority shall be
granted to sell, mortgage, or lease for a period
exceeding twenty-five years any trust or restricted

68a
lands included in the limits of the reservation. Any
charter so issued shall not be revoked or surrendered
except by Act of Congress.
25 U.S.C. § 5125. Acceptance optional
This Act shall not apply to any reservation wherein
a majority of the adult Indians, voting at a special
election duly called by the Secretary of the Interior,
shall vote against its application. It shall be the duty
of the Secretary of the Interior, within one year after
June 18, 1934, to call such an election, which election
shall be held by secret ballot upon thirty days’ notice.
25 U.S.C. § 5129. Definitions
The term “Indian” as used in this Act shall include
all persons of Indian descent who are members of
any recognized Indian tribe now under Federal
jurisdiction, and all persons who are descendants of
such members who were, on June 1, 1934, residing
within the present boundaries of any Indian
reservation, and shall further include all other persons
of one-half or more Indian blood. For the purposes of
this Act, Eskimos and other aboriginal peoples of
Alaska shall be considered Indians. The term “tribe”
wherever used in this Act shall be construed to refer
to any Indian tribe, organized band, pueblo, or the
Indians residing on one reservation. The words “adult
Indians” wherever used in this Act shall be construed
to refer to Indians who have attained the age of
twenty-one years.

69a
OKLAHOMA INDIAN WELFARE ACT OF JUNE 26, 1936
(Excerpt)
25 U.S.C. § 5203. Organization of tribes or bands;
constitution; charter; right to participate in
revolving credit fund
Any recognized tribe or band of Indians residing in
Oklahoma shall have the right to organize for its
common welfare and to adopt a constitution and
bylaws, under such rules and regulations as the
Secretary of the Interior may prescribe. The Secretary
of the Interior may issue to any such organized group
a charter of incorporation, which shall become
operative when ratified by a majority vote of the adult
members of the organization voting: Provided,
however, That such election shall be void unless the
total vote cast be at least 30 per centum of those
entitled to vote. Such charter may convey to the
incorporated group, in addition to any powers which
may properly be vested in a body corporate under the
laws of the State of Oklahoma, the right to participate
in the revolving credit fund and to enjoy any other
rights or privileges secured to an organized Indian
tribe under the Act of June 18, 1934 (48 Stat. 984):
Provided, That the corporate funds of any such
chartered group may be deposited in any national
bank within the State of Oklahoma or otherwise
invested, utilized, or disbursed in accordance with the
terms of the corporate charter.

70a
Department of the Interior and Related
Agencies Appropriations Act, 1992, Pub. L. No.
102-154, 105 Stat. 990 (1991) (Excerpt)
* * *
Provided further, That until such time as legislation
is enacted to the contrary, none of the funds appropriated in this or any other Act for the benefit of Indians
residing within the jurisdictional service area of the
Cherokee Nation of Oklahoma shall be expended by
other than the Cherokee Nation, nor shall any funds
be used to take land into trust within the boundaries
of the original Cherokee territory in Oklahoma without the consent of the Cherokee Nation[.]
* * *
Omnibus Consolidated and Emergency Supplemental Appropriations Act, 1999, Pub. L. No. 105277, 112 Stat. 2681 (1998) (Excerpt)
* * *
Provided further, That the sixth proviso under
Operation of Indian Programs in Public Law 102–154,
for the fiscal year ending September 30, 1992 (105
Stat. 1004), is hereby amended to read as follows:
“Provided further, That until such time as legislation
is enacted to the contrary, no funds shall be used to
take land into trust within the boundaries of the
original Cherokee territory in Oklahoma without
consultation with the Cherokee Nation[.]”
* * *

71a
TRUST ACQUISITION REGULATIONS
(Excerpts)
25 C.F.R. § 151.2 Definitions.
* * *
(b) Tribe means any Indian tribe, band, nation,
pueblo, community, rancheria, colony, or other group
of Indians, including the Metlakatla Indian Community
of the Annette Island Reserve, which is recognized by
the Secretary as eligible for the special programs
and services from the Bureau of Indian Affairs. For
purposes of acquisitions made under the authority of
25 U.S.C. 488 and 489, or other statutory authority
which specifically authorizes trust acquisitions for
such corporations, “Tribe” also means a corporation
chartered under section 17 of the Act of June 18, 1934
(48 Stat. 988; 25 U.S.C. 477) or section 3 of the Act of
June 26, 1936 (49 Stat. 1967; 25 U.S.C. 503).
* * *
(f) Unless another definition is required by the act
of Congress authorizing a particular trust acquisition,
Indian reservation means that area of land over which
the tribe is recognized by the United States as having
governmental jurisdiction, except that, in the State of
Oklahoma or where there has been a final judicial
determination that a reservation has been disestablished or diminished, Indian reservation means that
area of land constituting the former reservation of the
tribe as defined by the Secretary.
* * *

72a
25 C.F.R. § 151.8 Tribal consent for nonmember
acquisitions.
An individual Indian or tribe may acquire land in
trust status on a reservation other than its own only
when the governing body of the tribe having jurisdiction over such reservation consents in writing to the
acquisition; provided, that such consent shall not be
required if the individual Indian or the tribe already
owns an undivided trust or restricted interest in the
parcel of land to be acquired.

73a
APPENDIX E
————
TREATIES INVOLVED
————
TREATY WITH THE CHEROKEE, 1866.
(Excerpts)
Treaty between the United States of America and the
Cherokee Nation of Indians; Concluded July 19, 1866;
Ratification advised, with Amendments, July 27, 1866;
Amendments accepted July 31, 1866; Proclaimed August 11, 1866.
July 19, 1866.
WHEREAS a Treaty was made and concluded at the
city of Washington, in the District of Columbia, on the
nineteenth day of July, in the year of our Lord one
thousand eight hundred and sixty-six, by and between
Dennis N. Cooley and Elijah Sells, Commissioners, on
the part of the United States, and Smith Christie,
White Catcher, James McDaniel, S. H. Benge, Daniel
H. Ross, and J. B. Jones, delegates of the Cherokee nation, appointed by resolution of the national council,
on the part of said Cherokee nation, which treaty is in
the words and figures following, to wit:—
ARTICLES OF AGREEMENT AND CONVENTION
at the city of Washington on the nineteenth day of
July, in the year of our Lord one thousand eight hundred and sixty-six, between the United States, represented by Dennis N. Cooley, Commissioner of Indian
affairs, [and] Elijah Sells, superintendent of Indian affairs for the southern superintendency, and the Cherokee nation of Indians, represented by its delegates,
James McDaniel, Smith Christie, White Catcher, S. H.
Benge, J. B. Jones, and Daniel H. Ross-John Ross,

74a
principal chief of the Cherokees, being too unwell to
join in these negotiations.
PREAMBLE.
WHEREAS existing treaties between the United
States and the Cherokee nation are deemed to be insufficient, the said contracting parties agree as follows, viz:—
* * *
ARTICLE XIII.
The Cherokees also agree that a court or courts may
be established by the United States in said territory,
with such jurisdiction and organized in such manner
as may be prescribed by law: Provided, That the judicial tribunals of the nation shall be allowed to retain
exclusive jurisdiction in all civil and criminal cases
arising within their country in which members of the
nation, by nativity or adoption, shall be the only parties, or where the cause of action shall arise in the
Cherokee nation, except as otherwise provided in this
treaty.
* * *
ARTICLE XV.
The United States may settle any civilized Indians,
friendly with the Cherokees and adjacent tribes,
within the Cherokee country, on unoccupied lands east
of 96°, on such terms as may be agreed upon by any
such tribe and the Cherokees, subject to the approval
of the President of the United States, which shall be
consistent with the following provisions, viz: Should
any such tribe or band of Indians settling in said country abandon their tribal organization, there being first
paid into the Cherokee national fund a sum of money
which shall sustain the same proportion to the then

75a
existing national fund that the number of Indians sustain to the whole number of Cherokees then residing
in the Cherokee country, they shall be incorporated
into and ever after remain a part of the Cherokee nation, on equal terms in every respect with native citizens. And should any such tribe, thus settling in said
country, decide to preserve their tribal organizations,
and to maintain their tribal laws, customs, and usages, not inconsistent with the constitution and laws
of the Cherokee nation, they shall have a district of
country set off for their use by metes and bounds equal
to one hundred and sixty acres, if they should so decide, for each man, woman, and child of said tribe, and
shall pay for the same into the national fund such price
as may be agreed on by them and the Cherokee nation,
subject to the approval of the President of the United
States, and in cases of disagreement the price to be
fixed by the President.
And the said tribe thus settled shall also pay into the
national fund a sum of money, to be agreed on by the
respective parties, not greater in proportion to the
whole existing national fund and the probable proceeds of the lands herein ceded or authorized to be
ceded or sold than their numbers bear to the whole
number of Cherokees then residing in said country,
and thence afterwards they shall enjoy all the rights
of native Cherokees. But no Indians who have no tribal
organizations, or who shall determine to abandon
their tribal organizations, shall be permitted to settle
east of the 96° of longitude without the consent of the
Cherokee national council, or of a delegation duly appointed by it, being first obtained. And no Indians who
have and determine to preserve their tribal organizations shall be permitted to settle, as herein provided,
east of the 96° of longitude without such consent being
first obtained, unless the President of the United

76a
States, after a full hearing of the objections offered by
said council or delegation to such settlement, shall determine that the objections are insufficient, in which
case he may authorize the settlement of such tribe east
of the 96° of longitude.
ARTICLE XVI.
The United States may settle friendly Indians in any
part of the Cherokee country west of 96°, to be taken
in a compact form in quantity not exceeding one hundred and sixty acres for each member of each of said
tribes thus to be settled; the boundaries of each of said
districts to be distinctly marked, and the land conveyed in fee simple to each of said tribes to be held in
common or by their members in severalty as the
United States may decide.
Said lands thus disposed of to be paid for to the Cherokee nation at such price as may be agreed on between
the said parties in interest, subject to the approval of
the President; and if they should not agree, then the
price to be fixed by the President.
The Cherokee nation to retain the right of possession
of and jurisdiction over all of said country west of 96°
of longitude until thus sold and occupied, after which
their jurisdiction and right of possession to terminate
forever as to each of said districts thus sold and occupied.
* * *
ARTICLE XXVI.
The United States guarantee to the people of the
Cherokee nation the quiet and peaceable possession
of their country and protection against domestic
feuds and insurrections and against hostilities of
other tribes. They shall also be protected against

77a
inter[r]uptions or intrusion from all unauthorized citizens of the United States who may attempt to settle
on their lands or reside in their territory. In case of
hostilities among the Indian tribes, the United States
agree that the party or parties commencing the same
shall, so far as practicable, make reparation for the
damages done.
ARTICLE XXVII.
The United States shall have the right to establish
one or more military posts or stations in the Cherokee
nation, as may be deemed necessary for the proper
protection of the citizens of the United States lawfully
residing therein and the Cherokees and other citizens
of the Indian country. But no sutler or other person
connected therewith, either in or out of the military
organization, shall be permitted to introduce any
spirit[u]ous, vinous, or malt liquors into the Cherokee
nation, except the medical department proper, and by
them only for strictly medical purposes. And all persons not in the military service of the United States,
not citizens of the Cherokee nation, are to be prohibited from coming into the Cherokee nation, or remaining in the same, except as herein otherwise provided;
and it is the duty of the United States Indian agent for
the Cherokees to have such persons, not lawfully residing or sojourning therein, removed from the nation,
as they now are, or hereafter may be, required by the
Indian intercourse laws of the United States.
* * *
ARTICLE XXXI.
All provisions of treaties, heretofore ratified and in
force, and not inconsistent with the provisions of this
treaty, are hereby reaffirmed and declared to be in full
force; and nothing herein shall be construed as an

78a
acknowledgment by the United States, or as a relinquishment by the Cherokee nation of any claims or demands under the guaranties of former treaties, except
as herein expressly provided.
In testimony whereof, the said commissioners on the
part of the United States, and the said delegation on
the part of the Cherokee nation, have hereunto set
their hands and seals, at the city of Washington, this
ninth [nineteenth] day of July, A. D. one thousand
eight hundred and sixty-six.
D. N. COOLEY, Com’r Ind. Affairs.
ELIJAH SELLS, Sup’t Ind. Affs.
SMITH CHRISTIE,
WHITE CATCHER,
JAMES McDANIEL,
S. H. BENGE,
DANL. H. ROSS,
J. B. JONES.
Delegates of the Cherokee Nation, appointed
by Resolution of the National Council.
In presence of—
W. H. WATSON,
J. W. WRIGHT.
Signatures witnessed by the following-named persons, the following interlineations being made before
signing: On page 1st the word “the” interlined, on page
11 the word “the” struck out, and to said page 11 a
sheet attached requiring publication of laws; and on
page 34th the word “ceded” struck out and the words
“neutral lands” inserted. Page 47½ added relating to
expenses of treaty.
THOMAS EWING, JR.,
WM. A. PHILLIPS,
J. W. WRIGHT.

79a
And whereas, the said treaty having been submitted
to the Senate of the United States for its constitutional
action thereon, the Senate did, on the twenty-seventh
day of July, one thousand eight hundred and sixty-six,
advise and consent to the ratification of the same, with
amendments, by a resolution in the words and figures
following, to wit:—
IN EXECUTIVE SESSION, SENATE OF THE
UNITED STATES, July 27, 1866.
Resolved, (two thirds of the senators present concurring,) That the Senate advise and consent to the ratification of the articles of agreement and convention
made at the city of Washington, on the nineteenth day
of July, in the year of our Lord one thousand eight
hundred and sixty-six, between the United States and
the Cherokee nation of Indians, with the following
* * *
AMENDMENTS, to wit:—
* * *
Now, therefore, be it known that I, ANDREW
JOHNSON, President of the United States of America,
do, in pursuance of the advice and consent of the Senate, as expressed in its resolution of the twenty-seventh of July, one thousand eight hundred and sixtysix, accept, ratify, and confirm the said treaty with the
amendments as aforesaid.
In testimony whereof I have signed my name hereto,
and have caused the seal of the United States to be
affixed.
Done at the city of Washington, this eleventh day of
August, in the year of our Lord one thousand eight
hundred and sixty-six and of the Independence of the
United States of America the ninety-first.

80a
[SEAL.]
ANDREW JOHNSON.
By the President:
HENRY STANBERY, Acting Secretary of State.
TREATY WITH THE CHEROKEE, 1846.
(Excerpts)
Articles of a Treaty made and concluded at Washington, in the District of Columbia, between the United
States of America, by three Commissioners, Edmund
Burke, William Armstrong, and Albion K. Parris; and
John Ross, principal Chief of the Cherokee Nation, David Vann, William S. Coody, Richard Taylor, T. H.
Walker, Clement V. McNair, Stephen Foreman, John
Drew, and Richard Field, Delegates duly appointed by
the regularly constituted Authorities of the Cherokee
Nation; George W. Adair, John A. Bell, Stand Watie,
Joseph M. Lynch, John Huss, and Brice Martin, a Delegation appointed by, and representing, that Portion of
the Cherokee Tribe of Indians known and recognized
as the “Treaty Party;” John Brown, Captain Dutch,
John L. McCoy, Richard Drew, and Ellis Phillips, Delegates appointed by, and representing, that Portion of
the Cherokee Tribe of Indians known and recognized
as “Western Cherokees,” or “Old Settlers.”
August 6, 1846.
Consent of Senate, Aug. 8, 1846.
Proclamation, Aug. 17, 1846.
WHEREAS serious difficulties have, for a considerable time past, existed between the different portions
of the people constituting and recognized as the Cherokee nation of Indians, which it is desirable should be
speedily settled, so that peace and harmony may be
restored among them: and whereas certain claims

81a
exist on the part of the Cherokee nation, and portions
of the Cherokee people, against the United States;
therefore, with a view to the final and amicable settlement of the difficulties and claims before mentioned,
it is mutually agreed by the several parties to this convention as follows, viz:—
ARTICLE I.
That the lands now occupied by the Cherokee nation
shall be secured to the whole Cherokee people for their
common use and benefit; and a patent shall be issued
for the same, including the eight hundred thousand
acres purchased, together with the outlet west, promised by the United States, in conformity with the provisions relating thereto, contained in the third article
of the treaty of 1835, and in the third section of the act
of Congress, approved May twenty-eighth, 1830,
which authorizes the President of the United States,
in making exchanges of lands with the Indian tribes,
“to assure the tribe or nation with which the exchange
is made, that the United States will forever secure and
guarantee to them, and their heirs or successors, the
country so exchanged with them; and, if they prefer it,
that the United States will caùse a patent or grant to
be made and executed to them for the same: Provided,
always, That such lands shall revert to the United
States, if the Indians become extinct, or abandon the
same.”
* * *
ARTICLE XIII.
This treaty, after the same shall be ratified by the
President and Senate of the United States, shall be obligatory on the contracting parties.
In testimony whereof, the said Edmund Burke, William Armstrong, and Albion K. Parris, Commissioners

82a
as aforesaid, and the several delegations aforesaid,
and the Cherokee nation and people, have hereunto
set their hands and seals, at Washington aforesaid,
this sixth day of August, in the year of our Lord one
thousand eight hundred and forty-six.
EDMUND BURKE.
WM. ARMSTRONG.
ALBION K. PARRIS.
Delegation of the Government Party.
Jno. Ross,
Stephen Foreman,
W. S. Coody,
John Drew,
R. Taylor,
Richard Fields.
C. V. McNair,
Delegation of the Treaty Party.
Geo. W. Adair,
Joseph M. Lynch,
J. A. Bell,
John Huss,
S. Watie,
Brice Martin
(By J. M. Lynch,
his attorney.)
Delegation of the Old Settlers.
Jno. Brown,
Richard Drew,
Wm. Dutch,
Ellis F. Phillips.
John L. McCoy,
[To each of the names of the Indians a seal is affixed.]
In presence of—
Joseph Bryan, of Alabama.
Geo. W. Paschal.
John P. Wolf, (Secretary of Board.)
W.S. Adair.
Jno. F. Wheeler.

83a
IN EXECUTIVE SESSION, SENATE OF THE
UNITED STATES, August 8, 1846.
Resolved, (two thirds of the Senators present concurring,) That Senate advise and consent to the ratification of the articles of a treaty made and concluded at
Washington, in the District of Columbia, the sixth day
of August, in the year of our Lord one thousand eight
hundred and forty-six, between the United States of
America, by three Commissioners, Edmund Burke,
William Armstrong, and Albion K. Parris, and John
Ross, principal Chief of the Cherokee Nation, David
Vann, William S. Coody, Richard Taylor, T. H. Walker,
Clement F. McNair, Stephen Foreman, John Drew,
and Richard Field, Delegates duly appointed by the
regularly constituted authorities of the Cherokee Nation; Geo. W. Adair, John A. Bell, Stand Watie, Joseph
M. Lynch, John Huss, and Brice Martin, a delegation
appointed by and representing that portion of the
Cherokee tribe of Indians known and recognized as the
“Treaty Party;” John Brown, Captain Dutch, John L.
McCoy, Richard Drew, and Ellis Phillips, Delegates
appointed by and representing that portion of the
Cherokee tribe of Indians known and recognized as
“Western Cherokees,” or “Old Settlers,” with the following
* * *
AMENDMENTS.
Strike out of the fifth article the following words:
“First deducting therefrom the sum of fifty thousand
dollars, to be paid to the delegation of that portion of
the Cherokee people who are parties to the treaty, to
defray the expenses of prosecuting their claims
against the government of the United States, including the late Captain John Rogers.”
Strike out the twelfth article of the treaty.

Attest:

84a
ASBURY DICKENS, Secretary.

We, John Ross, principal Chief of the Cherokee nation, David Vann, Wm. S. Coody, Richard Taylor, T. H.
Walker, Clement F. McNair, Stephen Foreman, John
Drew, and Richard Field, Delegates duly appointed by
the regularly constituted authorities of the Cherokee
nation; George W. Adair, John A. Bell, Stand Watie,
Joseph M. Lynch, John Huss, and Brice Martin, a delegation appointed by and representing that portion of
the Cherokee tribe of Indians known and recognized
as the “Treaty Party;” John Brown, Captain Dutch,
John L. McCoy, Richard Drew, and Ellis Phillips, Delegates appointed by and representing that portion of
the Cherokee tribe of Indians known and recognized
as “Western Cherokees,” or “Old Settlers,” do hereby
give our free and voluntary assent to the foregoing
amendments made by the Senate of the United States,
on the eighth day of August, one thousand eight hundred and forty-six, to the treaty concluded by us with
Edmund Burke, William Armstrong, and Albion K.
Parris, Commissioners acting for and on behalf of the
United States, on the sixth day of August, one thousand eight hundred and forty-six, the same having
been submitted and fully explained to us by the Secretary of War and Commissioner of Indian Affairs, on
the part of the United States.
In testimony whereof, we have hereunto set our
hands and affixed our seals, respectively, at Washington, District of Columbia, the thirteenth day of August, one thousand eight hundred and forty-six.

85a
Jno. Ross,
David Vann,
W. S. Coodey,
R. Taylor,
T. Walker,
C. V. McNair,

Stephen Foreman, Stand Watie,
Jno. Brown,
(By John Ross.) J. M. Lynch,
Wm. Dutch,
John Drew,
Jno. Huss,
John L. McCoy,
Richard Fields,
Brice Martin,
Richard Drew,
Geo. W. Adair,
(By J. M. Lynch) Ellis F. Phillips
John A. Bell,

[To each of the names of the Indians a seal is affixed.]
Witnesses present,
Spencer Jarnagin, U. S. S.
H. Miller,

N. Quackenbush,
W. Medill.

TREATY WITH THE CHEROKEE, 1835.
(Excerpts)
ARTICLES OF A TREATY, Concluded at New
Echota in the State of Georgia on the 29th day of Decr.
1835 by General William Carroll and John F.
Schermerhorn commissioners on the part of the United
States and the Chiefs Head Men and People of the
Cherokee tribe of Indians.
December 29, 1835.
Proclamation, May 23, 1836.
WHEREAS the Cherokees are anxious to make some
arrangements with the Government of the United
States whereby the difficulties they have experienced
by a residence within the settled parts of the United
States under the jurisdiction and laws of the State
Governments may be terminated and adjusted; and
with a view to reuniting their people in one body and
securing a permanent home for themselves and their
posterity in the country selected by their forefathers
without the territorial limits of the State sovereignties, and where they can establish and enjoy a government of their choice and perpetuate such a state of
society as may be most consonant with their views,

86a
habits and condition; and as may tend to their individual comfort and their advancement in civilization.
And whereas a delegation of the Cherokee nation
composed of Messrs. John Ross Richard Taylor Danl.
McCoy Samuel Gunter and William Rogers with full
power and authority to conclude a treaty with the
United States did on the 28th day of February 1835
stipulate and agree with the Government of the
United States to submit to the Senate to fix the
amount which should be allowed the Cherokees for
their claims and for a cession of their lands east of the
Mississippi river, and did agree to abide by the award
of the Senate of the United States themselves and to
recommend the same to their people for their final determination.
And whereas on such submission the Senate advised
“that a sum not exceeding five millions of dollars be
paid to the Cherokee Indians for all their lands and
possessions east of the Mississippi river.”
And whereas this delegation after said award of the
Senate had been made, were called upon to submit
propositions as to its disposition to be arranged in a
treaty which they refused to do, but insisted that the
same “should be referred to their nation and there in
general council to deliberate and determine on the
subject in order to ensure harmony and good feeling
among themselves.”
And whereas a certain other delegation composed of
John Ridge Elias Boudinot Archilla Smith S. W. Bell
John West Wm. A. Davis and Ezekiel West, who represented that portion of the nation in favor of emigration to the Cherokee country west of the Mississippi
entered into propositions for a treaty with John F.
Schermerhorn commissioner on the part of the United

87a
States which were to be submitted to their nation for
their final action and determination:
And whereas the Cherokee people, at their last October council at Red Clay, fully authorized and empowered a delegation or committee of twenty persons of
their nation to enter into and conclude a treaty with
the United States commissioner then present, at that
place or elsewhere and as the people had good reason
to believe that a treaty would then and there be made
or at a subsequent council at New Echota which the
commissioners it was well known and understood,
were authorized and instructed to convene for said
purpose; and since the said delegation have gone on to
Washington city, with a view to close negotiations
there, as stated by them notwithstanding they were
officially informed by the United States commissioner
that they would not be received by the President of the
United States; and that the Government would transact no business of this nature with them, and that if a
treaty was made it must be done here in the nation,
where the delegation at Washington last winter urged
that it should be done for the purpose of promoting
peace and harmony among the people; and since these
facts have also been corroborated to us by a communication recently received by the commissioner from the
Government of the United States and read and explained to the people in open council and therefore believing said delegation can effect nothing and since our
difficulties are daily increasing and our situation is
rendered more and more precarious uncertain and insecure in consequence of the legislation of the States;
and seeing no effectual way of relief, but in accepting
the liberal overtures of the United States.
And whereas Genl William Carroll and John F.
Schermerhorn were appointed commissioners on the

88a
part of the United States, with full power and authority to conclude a treaty with the Cherokees east and
were directed by the President to convene the people
of the nation in general council at New Echota and to
submit said propositions to them with power and authority to vary the same so as to meet the views of the
Cherokees in reference to its details.
And whereas the said commissioners did appoint
and notify a general council of the nation to convene at
New Echota on the 21st day of December 1835; and
informed them that the commissioners would be prepared to make a treaty with the Cherokee people who
should assemble there and those who did not come
they should conclude gave their assent and sanction to
whatever should be transacted at this council and the
people having met in council according to said notice.
Therefore the following articles of a treaty are
agreed upon and concluded between William Carroll
and John F. Schermerhorn commissioners on the part
of the United States and the chiefs and head men and
people of the Cherokee nation in general council assembled this 29th day of Dec. 1835.
ARTICLE 1.
The Cherokee nation hereby cede relinquish and
convey to the United States all the lands owned
claimed or possessed by them east of the Mississippi
river, and hereby release all their claims upon the
United States for spoilations of every kind for and in
consideration of the sum of five millions of dollars to
be expended paid and invested in the manner stipulated and agreed upon in the following articles But as
a question has arisen between the commissioners and
the Cherokees whether the Senate in their resolution
by which they advised “that a sum not exceeding five

89a
millions of dollars be paid to the Cherokee Indians for
all their lands and possessions east of the Mississippi
river” have included and made any allowance or consideration for claims for spoilations it is therefore
agreed on the part of the United States that this question shall be again submitted to the Senate for their
consideration and decision and if no allowance was
made for spoilations that then an additional sum of
three hundred thousand dollars be allowed for the
same.
ARTICLE 2.
Whereas by the treaty of May 6th 1828 and the supplementary treaty thereto of Feb. 14th 1833 with the
Cherokees west of the Mississippi the United States
guarantied and secured to be conveyed by patent, to
the Cherokee nation of Indians the following tract of
country “Beginning at a point on the old western territorial line of Arkansas Territory being twenty-five
miles north from the point where the territorial line
crosses Arkansas river, thence running from said
north point south on the said territorial line where the
said territorial line crosses Verdigris river; thence
down said Verdigris river to the Arkansas river;
thence down said Arkansas to a point where a stone is
placed opposite the east or lower bank of Grand river
at its junction with the Arkansas; thence running
south forty-four degrees west one mile; thence in a
straight line to a point four miles northerly, from the
mouth of the north fork of the Canadian; thence along
the said four mile line to the Canadian; thence down
the Canadian to the Arkansas; thence down the Arkansas to that point on the Arkansas where the eastern Choctaw boundary strikes said river and running
thence with the western line of Arkansas Territory as
now defined, to the southwest corner of Missouri;

90a
thence along the western Missouri line to the land assigned the Senecas; thence on the south line of the
Senecas to Grand river; thence up said Grand river as
far as the south line of the Osage reservation, extended if necessary; thence up and between said south
Osage line extended west if necessary, and a line
drawn due west from the point of beginning to a certain distance west, at which a line running north and
south from said Osage line to said due west line will
make seven millions of acres within the whole described boundaries. In addition to the seven millions
of acres of land thus provided for and bounded, the
United States further guaranty to the Cherokee nation a perpetual outlet west, and a free and unmolested use of all the country west of the western boundary of said seven millions of acres, as far west as the
sovereignty of the United States and their right of soil
extend:
Provided however That if the saline or salt plain on
the western prairie shall fall within said limits prescribed for said outlet, the right is reserved to the
United States to permit other tribes of red men to get
salt on said plain in common with the Cherokees; And
letters patent shall be issued by the United States as
soon as practicable for the land hereby guarantied.”
And whereas it is apprehended by the Cherokees
that in the above cession there is not contained a sufficient quantity of land for the accommodation of the
whole nation on their removal west of the Mississippi
the United States in consideration of the sum of five
hundred thousand dollars therefore hereby covenant
and agree to convey to the said Indians, and their descendants by patent, in fee simple the following additional tract of land situated between the west line of
the State of Missouri and the Osage reservation

91a
beginning at the southeast corner of the same and
runs north along the east line of the Osage lands fifty
miles to the northeast corner thereof; and thence east
to the west line of the State of Missouri; thence with
said line south fifty miles; thence west to the place of
beginning; estimated to contain eight hundred thousand acres of land; but it is expressly understood that
if any of the lands assigned the Quapaws shall fall
within the aforesaid bounds the same shall be reserved and excepted out of the lands above granted
and a pro rata reduction shall be made in the price to
be allowed to the United States for the same by the
Cherokees.
ARTICLE 3.
The United States also agree that the lands above
ceded by the treaty of Feb. 14 1833, including the outlet, and those ceded by this treaty shall all be included
in one patent executed to the Cherokee nation of Indians by the President of the United States according to
the provisions of the act of May 28 1830. It is, however,
agreed that the military reservation at Fort Gibson
shall be held by the United States. But should the
United States abandon said post and have no further
use for the same it shall revert to the Cherokee nation.
The United States shall always have the right to make
and establish such post and military roads and forts in
any part of the Cherokee country, as they may deem
proper for the interest and protection of the same and
the free use of as much land, timber, fuel and materials of all kinds for the construction and support of the
same as may be necessary; provided that if the private
rights of individuals are interfered with, a just compensation therefor shall be made.

92a
ARTICLE 4.
The United States also stipulate and agree to extinguish for the benefit of the Cherokees the titles to the
reservations within their country made in the Osage
treaty of 1825 to certain half-breeds and for this purpose they hereby agree to pay to the persons to whom
the same belong or have been assigned or to their
agents or guardians whenever they shall execute after
the ratification of this treaty a satisfactory conveyance
for the same, to the United States, the sum of fifteen
thousand dollars according to a schedule accompanying this treaty of the relative value of the several reservations.
And whereas by the several treaties between the
United States and the Osage Indians the Union and
Harmony Missionary reservations which were established for their benefit are now situated within the
country ceded by them to the United States; the former
being situated in the Cherokee country and the latter
in the State of Missouri. It is therefore agreed that the
United States shall pay the American Board of Commissioners for Foreign Missions for the improvements
on the same what they shall be appraised at by Capt.
Geo. Vashon Cherokee sub-agent Abraham Redfield
and A.P. Chouteau or such persons as the President of
the United States shall appoint and the money allowed
for the same shall be expended in schools among the
Osages and improving their condition. It is understood
that the United States are to pay the amount allowed
for the reservations in this article and not the Cherokees.
ARTICLE 5.
The United States hereby covenant and agree that
the lands ceded to the Cherokee nation in the forgoing

93a
article shall, in no future time without their consent,
be included within the territorial limits or jurisdiction
of any State or Territory. But they shall secure to the
Cherokee nation the right by their national councils to
make and carry into effect all such laws as they may
deem necessary for the government and protection of
the persons and property within their own country belonging to their people or such persons as have connected themselves with them: provided always that
they shall not be inconsistent with the constitution of
the United States and such acts of Congress as have
been or may be passed regulating trade and intercourse with the Indians; and also, that they shall not
be considered as extending to such citizens and army
of the United States as may travel or reside in the Indian country by permission according to the laws and
regulations established by the Government of the
same.
ARTICLE 6.
Perpetual peace and friendship shall exist between
the citizens of the United States and the Cherokee Indians. The United States agree to protect the Cherokee nation from domestic strife and foreign enemies
and against intestine wars between the several tribes.
The Cherokees shall endeavor to preserve and maintain the peace of the country and not make war upon
their neighbors they shall also be protected against interruption and intrusion from citizens of the United
States, who may attempt to settle in the country without their consent; and all such persons shall be removed from the same by order of the President of the
United States. But this is not intended to prevent the
residence among them of useful farmers mechanics
and teachers for the instruction of Indians according
to treaty stipulations.

94a
ARTICLE 7.
The Cherokee nation having already made great
progress in civilization and deeming it important that
every proper and laudable inducement should be offered to their people to improve their condition as well
as to guard and secure in the most effectual manner
the rights guarantied to them in this treaty, and with
a view to illustrate the liberal and enlarged policy of
the Government of the United States towards the Indians in their removal beyond the territorial limits of
the States, it is stipulated that they shall be entitled
to a delegate in the House of Representatives of the
United States whenever Congress shall make provision for the same.
* * *
ARTICLE 14.
It is also agreed on the part of the United States that
such warriors of the Cherokee nation as were engaged
on the side of the United States in the late war with
Great Britain and the southern tribes of Indians, and
who were wounded in such service shall be entitled to
such pensions as shall be allowed them by the Congress of the United States to commence from the period of their disability.
* * *
ARTICLE 16.
It is hereby stipulated and agreed by the Cherokees
that they shall remove to their new homes within two
years from the ratification of this treaty and that during such time the United States shall protect and defend them in their possessions and property and free
use and occupation of the same and such persons as
have been dispossessed of their improvements and
houses; and for which no grant has actually issued

95a
previously to the enactment of the law of the State of
Georgia, of December 1835 to regulate Indian occupancy shall be again put in possession and placed in
the same situation and condition, in reference to the
laws of the State of Georgia, as the Indians that have
not been dispossessed; and if this is not done, and the
people are left unprotected, then the United States
shall pay the several Cherokees for their losses and
damages sustained by them in consequence thereof.
And it is also stipulated and agreed that the public
buildings and improvements on which they are situated at New Echota for which no grant has been actually made previous to the passage of the above recited
act if not occupied by the Cherokee people shall be reserved for the public and free use of the United States
and the Cherokee Indians for the purpose of settling
and closing all the Indian business arising under this
treaty between the commissioners of claims and the
Indians.
The United States, and the several States interested
in the Cherokee lands, shall immediately proceed to
survey the lands ceded by this treaty; but it is expressly agreed and understood between the parties
that the agency buildings and that tract of land surveyed and laid off for the use of Colonel R. J. Meigs
Indian agent or heretofore enjoyed and occupied by his
successors in office shall continue subject to the use
and occupancy of the United States, or such agent as
may be engaged specially superintending the removal
of the tribe.
* * *

96a
ARTICLE 19.
This treaty after the same shall be ratified by the
President and Senate of the United States shall be obligatory on the contracting parties.
ARTICLE 20.
(Supplemental article. Stricken out by Senate.)
In testimony whereof, the commissioners and the
chiefs, head men, and people whose names are hereunto annexed, being duly authorized by the people in
general council assembled, have affixed their hands
and seals for themselves, and in behalf of the Cherokee
nation.
I have examined the foregoing treaty, and although
not present when it was made, I approve its provisions
generally, and therefore sign it.
WM. CARROLL,
J. F. SCHERMERHORN.
Major Ridge,
James Foster,
Tesa-ta-esky,
Charles Moore,
George Chambers,
Tah-yeske,
Archilla Smith,
Andrew Ross,
William Lassley,
Cae-te-hee,

Te-gah-e-ske,
Robert Rogers,
John Gunter,
John A. Bell,
Charles F. Foreman,
William Rogers,
George W. Adair,
Elias Boudinot,
James Starr,
Jesse Half-breed.

Signed and sealed in presence of Western B.
Thomas, Secry. Ben. F. Currey, Special Agent. M.
Wolfe Bateman, 1st Lt. 6th U. S. A. inf., Disbg. Agent.
Jno. L. Hooper, Lt. 4th inf. C. M. Hitchcock, M. D. Assist. Surg. U. S. A. G. W. Currey. Wm. H. Underwood.
Cornelius D. Terhune. John W. H. Underwood.

97a
To the Indian names are subjoined a mark and seal.
In compliance with instructions of the council at
New Echota we sign this treaty.
STAND WATIE,
JOHN RIDGE.
March 1, 1836.
WITNESSES.—Elbert Herring. Alexander H. Everett. John Robb. D. Kurtz. Wm. Y. Hansell. Samuel
J. Potts. Jno. Litle. S. Rockwell.
* * *
Whereas the western Cherokees have appointed a
delegation to visit the eastern Cherokees to assure
them of the friendly disposition of their people and
their desire that the nation should again be united as
one people and to urge upon them the expediency of
accepting the overtures of the Government; and that,
on their removal they may be assured of a hearty welcome and an equal participation with them in all the
benefits and privileges of the Cherokee country west
and the undersigned two of said delegation being the
only delegates in the eastern nation from the west at
the signing and sealing of the treaty lately concluded
at New Echota between their eastern brethren and the
United States; and having fully understood the provisions of the same they agree to it in behalf of the western Cherokees. But it is expressly understood that
nothing in this treaty shall affect any claims of the
western Cherokees on the United States.
In testimony whereof, we have, this 31st day of December, 1835, hereunto set our hands and seals.
JAMES ROGERS,
JOHN SMITH,
Delegates from the western Cherokees.

98a
Test: Ben. F. Currey, Special Agent. M. W. Bateman, First Lieut. 6th Infantry. Jno. L. Hooper, Lieut.
4th Infy. Elias Boudinot.
Schedule and estimated value of the Osage half-breed
reservations within the territory ceded to the
Cherokees west of the Mississippi, (referred to in
article 5 on the foregoing treaty,) viz:
Augustus Clamont one section ……………… $6,000
James
“
“
“
……………… 1,000
Paul
“
“
“
……………… 1,300
Henry
“
“
“
………………
800
Anthony
“
“
“
……………… 1,800
Rosalie
“
“
“
……………… 1,800
Emilia D, of Mihanga …………………………
1,000
1,300
Emilia D, of Shemianga …………………………
$15,000
I hereby certify that the above schedule is the estimated value of the Osage reservations; as made out
and agreed upon with Col. A. P. Choteau who represented himself as the agent or guardian of the above
reservees.
J. F. SCHERMERHORN.
March 14, 1835.
* * *

